<html>
<title> - KEEPING AMERICA'S CHILDREN SAFE: PREVENTING CHILDHOOD INJURY</title>
<body><pre>[Senate Hearing 110-899]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 110-899
 
      KEEPING AMERICA'S CHILDREN SAFE: PREVENTING CHILDHOOD INJURY

=======================================================================



                                HEARING

                                 OF THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS

                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                                   ON

            EXAMINING PREVENTING CHILDHOOD ACCIDENTAL INJURY

                               __________

                              MAY 1, 2008

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                                 senate



                  U.S. GOVERNMENT PRINTING OFFICE
42-290                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

               EDWARD M. KENNEDY, Massachusetts, Chairman

CHRISTOPHER J. DODD, Connecticut     MICHAEL B. ENZI, Wyoming,
TOM HARKIN, Iowa                     JUDD GREGG, New Hampshire
BARBARA A. MIKULSKI, Maryland        LAMAR ALEXANDER, Tennessee
JEFF BINGAMAN, New Mexico            RICHARD BURR, North Carolina
PATTY MURRAY, Washington             JOHNNY ISAKSON, Georgia
JACK REED, Rhode Island              LISA MURKOWSKI, Alaska
HILLARY RODHAM CLINTON, New York     ORRIN G. HATCH, Utah
BARACK OBAMA, Illinois               PAT ROBERTS, Kansas
BERNARD SANDERS (I), Vermont         WAYNE ALLARD, Colorado
SHERROD BROWN, Ohio                  TOM COBURN, M.D., Oklahoma

           J. Michael Myers, Staff Director and Chief Counsel

                 Ilyse Schuman, Minority Staff Director

                                  (ii)


                            C O N T E N T S

                               __________

                               STATEMENTS

                         THURSDAY, MAY 1, 2009

                                                                   Page
Dodd, Hon. Christopher, a U.S. Senator from the State of 
  Connecticut, opening statement.................................     1
Isakson, Hon. Johnny, a U.S. Senator from the State of Georgia, 
  statement......................................................     2
Kennedy, Hon. Edward M., Chairman, Committee on Health, 
  Education, Labor, and Pensions, opening statement..............     3
    Prepared statement...........................................     4
Arias, Ileana, Director, National Center for Injury Prevention 
  and Control, Atlanta, GA.......................................     5
    Prepared statement...........................................     7
Korn, Alan, Director of Public Policy, Safe Kids USA 
  International, Washington, DC..................................    16
    Prepared statement...........................................    17
Bruns, Justin, The Boys Latin School of Maryland, Baltimore, MD..    26
    Prepared statement...........................................    27
Appy, Meri-K, President, Home Safety Council, Washington, DC.....    28
    Prepared statement...........................................    30
Williams, Amber, Executive Director, State and Territorial Injury 
  Prevention Directors, Atlanta, GA..............................    30
    Prepared statement...........................................    31

                          ADDITIONAL MATERIAL

Statements, articles, publications, letters, etc.:
    Enzi, Hon. Michael B., a U.S. Senator from the State of 
      Wyoming, prepared statement................................    42
    Kathleen Bruns, mother of Justin Bruns, prepared statement...    28

                                 (iii)



      KEEPING AMERICA'S CHILDREN SAFE: PREVENTING CHILDHOOD INJURY

                              ----------                              


                         THURSDAY, MAY 1, 2008

                                       U.S. Senate,
       Committee on Health, Education, Labor, and Pensions,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:35 a.m. in 
Room SD-430, Dirksen Senate Office Building, Hon. Edward M. 
Kennedy, chairman of the committee, presiding.
    Present: Senators Kennedy, Dodd, and Isakson.

                   Opening Statement of Senator Dodd

    Senator Dodd [presiding]. The committee will come to order, 
and we welcome all of you here this morning. We are here today 
to celebrate the victories over the past 20 years of an 
organization and organizations like Safe Kids USA in protecting 
America's children from unintentional childhood injury.
    First of all, I want to congratulate Safe Kids on their 
20th anniversary. I have been fortunate enough to work with 
this organization for the past 20 years on numerous occasions 
in various settings, as we have celebrated the work of Safe 
Kids and their contributions. They deserve a great deal of 
credit for the progress that has been made in protecting our 
children from accidental injuries.
    On average, the fatality rate from unintentional injuries 
has dropped by 45 percent over the past 20 years, and that is 
due to the dedication of all of the organizations we have here 
today to research the best ways to prevent childhood injury and 
to get that information out to parents and to caregivers.
    But we are also here today to talk about what still needs 
to be done in this area, and a lot needs to be done, of course. 
Despite the decrease I mentioned, we still have an average of 
430 children dying each month from accidental injuries. It is 
still the No. 1 killer of American children under the age of 
14, regrettably.
    I remember a time, and I am sure my colleague does, when 
there were no car seats, we didn't always buckle up, and it was 
okay to smoke around your children. We have been able to become 
far more sophisticated in how we protect our children, but we 
have got a ways to go. So I am pleased to have all of you here 
today to discuss that with this committee.
    The burden of preventing childhood injury falls on American 
families and caregivers, and they have so much to worry about. 
Parents have to be concerned about dangers in the home, at 
their childcare provider, at the homes of family and friends, 
and the potential dangers which arise when children are out of 
their sight.
    The constant concern can be quite an emotional toll on 
parents, but the financial cost associated with keeping a child 
safe can be astronomical. Parents and caregivers need to have 
car seats, helmets, smoke detectors, carbon monoxide detectors, 
temperature-sensing faucets. The list goes on and on. We need 
to ensure that families of all income levels have access to the 
best technology available to keep their children safe.
    I have got to take a moment here to brag a little bit. 
Coming from the State of Connecticut, we recently were named 
the ``Safest State For Kids'' by Parents magazine. We are 
deeply proud of that recognition. It is an honor to be so 
designated, and there are a lot of people in my State who 
deserve credit for that, helping us--our mayors, our State 
legislators, our governors, the State officials, and others who 
have worked over the years to earn that reputation.
    Today, we have with us representatives from the Centers for 
Disease Control and Prevention, Safe Kids USA, the Home Safety 
Council, and the State and Territorial Injury Prevention 
Directors Association, who have all been crucial in the 
decrease in numbers of injuries over the years.
    We also have with us a young man, Justin Bruns, who has a 
personal story about how he was able to escape permanent injury 
because of the safety precautions that he took, and the story 
highlights why it is so important for caregivers to take 
seriously the issue of injury prevention to protect their 
children from harm. We are honored to have Justin with us this 
morning, and we thank him in advance for his testimony. It is 
very courageous to come forward and talk about a situation that 
you have been in.
    With that, let me turn to my colleague, Senator Isakson, 
and then we will hear from our witnesses. We thank them for 
being with us.

                      Statement of Senator Isakson

    Senator Isakson. Well, thank you very much, Chairman Dodd. 
It is an honor to be here, and I welcome Safe Kids USA and all 
our witnesses, in particular young Justin. We are glad to have 
you here to tell your story today.
    I am glad to be a part of this. I am the father of three 
and the grandfather to eight, six of whom are under 4 years 
old. We end up keeping them a lot of weekends when I am home. 
So I have become an expert in child safety restraints and all 
kinds of things that have been a product of the movement over 
the last 20 years really to make our homes safer and our 
children safer.
    I was particularly pleased to be the co-sponsor of the 
Cameron Gulbransen Kids and Cars Safety Act recently, which 
came out of a personal tragedy in my district, where a young 
lady by the name of Cindy Donald, who was a cheerleader at 
Lassiter High School, was sunbathing during the summer between 
her junior and senior year. Her father, in a hurry, backed his 
SUV out of the garage and rolled over her legs, severing part 
of her spine, and she is a quadriplegic today.
    I am a part of the Cindy Donald Foundation, where we raise 
money to help her rehabilitate and recover. But because of this 
new act, now we will have the sounds made by cars backing up in 
reverse so that someone who might be in harm's way has a 
warning and knows something like that is getting ready to 
happen.
    I think learning the lessons of life, as Justin is going to 
tell us about in his experience, help us to do those things 
that make our children safer, and we need to celebrate that. 
Today is a celebration of child safety, but it is also an 
awareness that we have to continue to be acutely aware of those 
challenges that confront us everywhere we can reasonably and 
responsibly protect our children and make them safe.
    Again, I welcome all of our guests who testify today.
    Thank you, Mr. Chairman.
    Senator Dodd. Thank you very much.
    I mentioned informally at the outset of the hearing that 
Senator Kennedy will be here shortly. He has been tied up this 
morning and asked me to come on in and be a part of this.
    But as I mentioned at the outset, I have enjoyed immensely 
over the years, my involvement with Safe Kids USA. As Chairman 
of the Subcommittee on Children and Families, we have worked 
very closely together over the years developing a lot of 
various ideas that I hope have contributed to exactly the 
celebration we are enjoying here this morning.
    I should also point out, as my friend Johnny, as the father 
of--well, here he is now. Look at this. The timing--well, very 
good. I was kind of enjoying this right here.
    The Chairman [presiding]. That is what I was afraid of.
    [Laughter.]
    How many years----
    Senator Dodd. A lot. I have been waiting a lot.
    The Chairman. How many years have you been waiting?
    Senator Dodd. I know. I keep on holding his wrist to get a 
pulse every now and then.
    [Laughter.]
    I am sad to report it is very strong. Well, I was just 
saying with two young children as well, we are very conscious 
in our homes, as all of us are, of safety methods that need to 
be taken. I have made an opening statement, as has Senator 
Isakson. We have got our first witness here, but do you want to 
make some opening comments?

                  Opening Statement Of Senator Kennedy

    The Chairman. Well, I will just put mine in the record.
    We want to acknowledge, as we do frequently, that our good 
chairman today, Senator Dodd, has been the chairman of the 
Children's Caucus before being chairman of a Children's Caucus 
was being cool. Years and years, he has chaired that and has 
been enormously involved in all of the policy issues relating 
to children and has really made a great difference.
    Senator Isakson has also been so involved and active in our 
committee in terms of the children's issues. So we are very 
fortunate to have him as well.
    I think the really good news is that progress has been 
made. We are not used to good news around here. It seems that 
so many of the challenges that we face are so overwhelming and 
whether we can really make some progress. But we find out if we 
really do what these wonderful organizations have recommended 
and the outreach that they have had in terms of families and 
parents and urging it in local community levels has really made 
a very important difference.
    We want them to know that we want to be part of that whole 
process because we think they can continue to make progress.
    Second, just very quickly, there is always the issue of the 
cost of some of these items. Whether they are available, 
accessible to parents, and whether they can afford them. We are 
going to hear, I know, this incredible story about this young 
person's life probably saved because of the use of a helmet, 
and can people afford it? Particularly these economic ties are 
things we ought to be able to do or think about some of those 
issues.
    I will put my whole statement in the record, Mr. Chairman. 
But I thank you, and I thank our witnesses. We have got a 
really extraordinary group of people who have been on this 
issue for years and have really been enormously helpful to our 
committee and very helpful in terms of helping to shape 
national policy. We are very grateful to all of them.
    [The prepared statement of Senator Kennedy follows:]

                 Prepared Statement of Senator Kennedy

    Our hearing today is on protecting American children more 
effectively from unintentional childhood injury and death. I'd 
like to begin by congratulating the organization of Safe Kids 
USA on its 20th anniversary and on its 20 years of dedication 
and achievement on this important issue.
    First, let me say, I've had the privilege of working with 
you since the beginning and you deserve great credit for the 
progress that has been made in protecting children from 
accidental injury. All of our panelists here today represent 
organizations that research ways to prevent injury, educate 
caregivers in creative ways, and help kids learn to keep 
themselves safe. An important challenge that we face in helping 
families protect their children is the cost.
    As I mentioned, this hearing today focuses on unintentional 
childhood injury, but I also want to take this opportunity to 
highlight an important related program up for reauthorization 
this year--The Child Abuse Prevention and Treatment Act. It was 
originally enacted in 1974 to identify and address the issues 
of child abuse and neglect, and to support effective methods of 
prevention and treatment. It provides grants to States to offer 
child protective services, funds for research and demonstration 
projects, assistance to States to investigate and prosecute 
cases of child maltreatment, and grants for community-based 
support service. Furthermore, I look forward to working with my 
colleagues to reauthorize this important program.
    It's so important that we do all we can to support safety 
research and prevention measures. Despite all that we've 
accomplished over 20 years, 430 children are still dying each 
month from accidental injury. In Massachusetts alone, there are 
nearly 43,000 children under the age of 4 who visited the 
emergency room each year for nonfatal injuries.
    It's amazing how times have changed in not only how we 
behave around our children today, but also take extra care in 
protecting them. Not long ago, I can remember it was acceptable 
to place a baby seat in the front of your car and child bike 
helmets were considered optional. It has been proven that these 
changes in our behavior, which all of you have been strong 
advocates and educators in bringing to our attention, save 
lives. Such examples include that since 1987, we have decreased 
child motor safety injuries by 49 percent and bike injuries 
have fallen 49 percent. These statistics demonstrate the 
success in your work and how sophisticated and aware we have 
become in protecting our children.
    Today unintentional injuries remain the No. 1 killer of 
American children under the age of 14. The burden of preventing 
childhood injuries can be a tremendous drain on parent's energy 
and the worrying can be overwhelming. As a parent, who has 
raised three children, I have first-hand knowledge of how 
emotionally draining it can be to protect your children and 
ensure their safety. It is important for parents to be aware of 
dangers in not only their home, but their daycare centers, 
relative's houses, and child's friend's houses. It is only 
through education and proactive action by parents can we 
further reduce childhood injuries.
    Today, we have with us representatives from the Centers for 
Disease Control, Safe Kids USA, the Home Safety Council, and 
the State and Territorial Injury Prevention Director's 
Association. Also, we have a tremendous example here with us 
today of how safety precautions prevent childhood injury. A 
young man, named Justin Bruns, has a personal story of why it's 
so important for caregivers to take their responsibility of 
childhood safety precautions seriously.

    The Chairman. I will ask you if you want to----
    Senator Dodd. Thank you very much.
    Dr. Ileana Arias is the Director of the CDC's National 
Center for Injury Prevention and Control. She is responsible 
for the expansion of State programs for injury prevention, the 
development of surveillance for circumstances surrounding 
violent deaths, and new research in such areas as child 
maltreatment.
    Dr. Arias is a clinical psychologist with a research 
expertise in family violence, and we are truly honored to have 
you with us here this morning. I would just say to you, Doctor, 
and I guess everyone else, all of your statements and 
supporting documents and materials will be made a part of the 
record.
    So, thank you.

STATEMENT OF ILEANA ARIAS, DIRECTOR, NATIONAL CENTER FOR INJURY 
              PREVENTION AND CONTROL, ATLANTA, GA

    Ms. Arias. Thank you very much, Senator Dodd, Chairman 
Kennedy, and Senator Isakson.
    I am delighted to be here to talk to you about this 
important public health issue and then also join our partners 
in this endeavor who have been primarily responsible for the 
advances that you alluded to earlier. It is the case that 
unintentional injuries is the leading killer of American 
children, something that continues to be true in spite of the 
advances that we have made.
    Motor vehicle-related crashes and traffic incidents are the 
primary cause of those deaths, followed very closely by 
drownings and fires. Of course, the deaths are just the 
beginning of the story as far as the toll and the burden of 
injuries among children.
    Non-fatal injuries are the leading reason or the main 
reason why children are brought to the attention of an 
emergency department. Primarily those are the results of falls. 
We are talking about kids who are being treated for broken 
bones, head concussions, and other injuries associated with 
falls, usually in the home or playgrounds.
    Not surprisingly, the costs are astronomical. In 2000, we 
estimated that the lifetime cost for children between the ages 
of 1 and 14 of injuries that included both medical expenses and 
productivity losses over the lifetime is in excess of $51 
billion, a significant ticket that we have to then pay on a 
continuing basis.
    That is the bad news. The good news, as you mentioned, is 
that these are largely preventable, and they are preventable 
because we know what works. We know how to prevent these 
injuries, which then accounts for the successes that we have 
made over the last couple of decades.
    At CDC, we are committed to making sure that children are 
safe. That is, we believe that they are entitled to a safe and 
healthy life and that every child has the right to live his or 
her life to the fullest potential. Our contribution to that is 
by supporting the work that needs to be done in order to 
decrease that significant challenge to that goal, and that is 
injuries.
    We essentially support research and then, importantly, 
making sure that that research goes out the door and 
implemented by communities in order to prevent those injuries. 
We want to make sure that all caregivers and parents are fully 
aware of what it is that they have to watch out for as far as 
their kids are concerned and what kinds of things they can do 
in order to maximize their safety.
    Over the past couple of decades, we have been primarily 
preoccupied with making sure that people understand what the 
burden is, that there is a problem, but then very importantly 
identifying what it is that they can do to prevent it. Where we 
are now is making sure that those tools get into the hands of 
individuals who are in a position to actually use them to 
accomplish the goal of furthering reducing the burden of injury 
among kids in the United States.
    As I said, we know what works. The issue now is making sure 
that that is widely disseminated and implemented. We recognize 
that we can't do that on our own. In fact, we can't do much of 
it on our own. We have to be very cognizant of the partnerships 
that are crucial to making that happen. Partnering with 
organizations such as Safe Kids, Home Safety Council, and then 
Government organizations, both at the State and local levels, 
as well as to make sure that it happens.
    I started off by sort of agreeing with you about the bad 
news. I agree with you that we do need to concentrate on the 
fact that there is some good news, that we have made a 
significant impact over the last two decades. More than that, 
that we actually do have the tools currently to improve upon 
that. So that, fortunately, the good news is that nowadays we 
can do more than cross our fingers and hope that when our kids 
leave home, when they get up in the morning, that they will be 
safe. We actually can ensure that they will be safe.
    I thank you for bringing this issue to the attention of the 
American public and calling attention to it, and I also thank 
you for the support that you have provided over these last 
years to make sure that what we are celebrating today actually 
is possible to celebrate.
    So I thank you very much, and then I am happy to answer any 
questions you may have.
    [The prepared statement of Dr. Arias follows:]
               Prepared Statement of Ileana Arias, Ph.D.
    Good morning Chairman Kennedy, Ranking Member Enzi, and 
distinguished members of the committee. It is my privilege to appear 
before you as Director of the National Center for Injury Prevention and 
Control (NCIPC) at the Centers for Disease Control and Prevention 
(CDC). At CDC, we work to ensure that all people achieve their optimal 
lifespan with the best possible quality of health at every stage of 
life. We are equally motivated to ensure that individuals get a healthy 
start in life, and nowhere is this more important than in the lives of 
children.
    Regardless of gender, race, or economic status, injuries remain a 
leading cause of death for Americans. Unintentional or accidental 
injury and violence are particularly serious threats to the health and 
well-being of children and adolescents in the United States. CDC is 
leading the Nation's efforts in reducing premature death, disability, 
human suffering and the medical costs associated with injuries and 
violence. Working with State and local governments, nonprofit 
organizations, professional societies, academic institutions, private 
entities, other Federal agencies and international organizations, CDC 
is documenting the numbers and identifying the causes of injuries, 
finding and developing effective prevention strategies, and promoting 
widespread adoption of these solutions.
    I will begin today by giving an overview of childhood injury and 
violence and explaining CDC's unique public health role in their 
prevention. For many, we know how to prevent injury and death from 
occurring. I will also give an update on CDC's research findings on 
specific childhood injuries and give a few examples of CDC efforts that 
illustrate how we contribute to a healthier nation.
                    children and injuries: overview
    Infants and young children are at greater risk for many injuries 
than adults. This increased risk may be attributed to several factors. 
Children are curious and like to explore their environment, which may 
lead children to sample pills in the medicine cabinet, play with 
matches or venture into a family pool. Young children have immature 
physical coordination and cognitive abilities, and are at greater risk 
of falls from bicycles and playground equipment. Developing bones and 
muscles may make them more susceptible to injury in car crashes if they 
are not properly restrained. As pedestrians, children are particularly 
vulnerable because developmentally they cannot properly gauge the speed 
of traffic, and they lack the perceptual motor skills to avoid the path 
of on-coming traffic when they cross the road.
    In general, injuries are the leading cause of death for Americans 
aged 1 to 44 years. In 2000, injury death and disability cost an 
estimated $406 billion in lifetime medical treatment expenses and lost 
productivity including lost wages and benefits as well as costs that 
are due to inability to perform household activities for an injury 
sustained in 2000.\1\ Of that total, injuries among children ages 0-14 
account for $51 billion). Unintentional or accidental injuries remain 
the leading cause of death among young Americans, with the exception of 
Congenital Anomalies for children less than 1 year of age. Overall, 
motor vehicles and traffic-related accidents are the leading cause of 
injury by which children are killed, followed closely by drowning and 
unintentional fires. Additionally, unintentional injuries remain the 
leading cause of childhood non-fatal injuries treated in hospital 
emergency departments across the Nation.
---------------------------------------------------------------------------
    \1\ Injury in the U.S.: 2007 Chartbook, National Center for Health 
Statistics.
---------------------------------------------------------------------------
    Below are leading causes of injury deaths by age group:

 
------------------------------------------------------------------------
                                              Leading Causes of Injury
                 Age Range                           Death, 2005
------------------------------------------------------------------------
Less than 1 year..........................  Unintentional suffocation;
                                             unintentional motor vehicle
                                             crashes; unspecified
                                             homicide.
1-3 years.................................  Unintentional drowning;
                                             unintentional motor vehicle
                                             crashes; unintentional fire/
                                             burn.
4-11 years................................  Unintentional motor vehicle
                                             crashes; unintentional fire/
                                             burn; unintentional
                                             drowning.
12-19 years...............................  Unintentional motor vehicle;
                                             homicide (firearm); suicide
                                             (firearm).
------------------------------------------------------------------------

          role of public health in childhood injury prevention
    To prevent childhood injuries, CDC uses a systematic public health 
approach. This approach has four steps: define the problem, identify 
the risk and protective factors, develop and test prevention strategies 
and assure widespread adoption of the best interventions. CDC achieves 
these primarily through surveillance and data sharing; research on 
possible interventions; community implementation and evaluation of 
interventions; and widespread adoption of proven interventions.
    CDC conducts surveillance to inform efforts in developing effective 
public health programs. By knowing the magnitude of the problem and the 
affected populations, resources can be directly applied and capacity 
adjusted to control or prevent the injury by utilizing and evaluating 
proven interventions.
                      burden of childhood injuries
    CDC studies the burden of injury across the lifespan, but today I 
will focus on children and the leading causes of childhood injuries.
Child Passenger Safety and Young Drivers
    Motor vehicle traffic-related injuries are the leading cause of 
death among children in the United States. During 2005, the National 
Highway Traffic Safety Administration (NHTSA) reported that 1,451 
children ages 14 years and younger died as occupants in motor vehicle 
crashes, and approximately 203,000 were injured--an average of 4 deaths 
and 556 injuries each day. NHTSA also reported that of children ages 0 
to 14 years killed in motor vehicle crashes during 2005, nearly half 
were unrestrained. However, many of these deaths can be prevented. We 
know that placing children in age- and size-appropriate restraint 
systems reduces serious and fatal injuries by more than half. CDC is 
currently evaluating State-based programs to increase booster seat use 
among children 4 to 8 years of age, in order to inform efforts in other 
States to address passenger safety issues among children.
    Because motor vehicle crashes are the leading cause of death for 
U.S. teens aged 15-19, accounting for 35 percent of all deaths in this 
age group, research funded by the AAA Foundation for Traffic Safety 
suggests that the most strict and comprehensive graduated drivers 
licensing programs are associated with a 38 percent reduction in 
fatalities and a 40 percent reduction in injuries of 16-year old 
drivers due to crashes. CDC is building partnerships to promote and 
strengthen Graduated Driver Licensing (GDL) Systems in States.
Child Maltreatment
    The true number of children who are victims of child maltreatment 
in the United States is unknown, but in 2006 the Administration on 
Children & Families (ACF) reported 905,000 cases of confirmed or 
substantiated cases of non-fatal child maltreatment each year in the 
United States. Child maltreatment includes physical, sexual, and 
emotional abuse and neglect, and is believed to be underreported. In 
2006, ACF data further showed that 1,530 child deaths were officially 
attributed to maltreatment. Child maltreatment through blunt trauma to 
the head or violent shaking (also known as shaken baby syndrome) is the 
leading cause of head injury among infants and young children.
    In addition to injuries and related health issues during childhood, 
child maltreatment can increase the risk factors for many of the 
leading causes of death among adults. CDC research shows that children 
who are maltreated are at an increased risk for a variety of health 
problems, including heart disease, cancer, chronic lung disease, liver 
disease, alcoholism, drug abuse and depression; and other forms of 
violence, such as intimate partner and family violence. Indeed, 
witnessing or experiencing abuse or neglect as a child can increase the 
risk factors for becoming a victim or perpetrator of violence. With the 
other work CDC is doing in violence and injury prevention, child 
maltreatment prevention represents an opportunity for CDC to have an 
impact across the lifespan.
    CDC has identified programs that teach parenting skills to promote 
safe, stable, nurturing relationships as one solution for this problem. 
These methods aim to motivate positive parent child interaction and 
teach parents to avoid neglectful and physically abusive behavior.
Water Safety
    In 2005, of all children 1-14 years old who died, 6.6 percent died 
from drowning. Although unintentional drowning rates have slowly 
declined, fatal drowning remains the second-leading cause of 
unintentional injury-related death for this age group. In addition, for 
every child 14 years and younger who died from drowning in 2004, four 
received emergency department care for non-fatal submersion injuries. 
Research indicates that lack of supervision and proper barriers (such 
as pool fencing) are primary risk factors. CDC continues to promote 
water safety education to caregivers by providing information to parent 
groups, recreation centers and schools.
Residential Fire-Related Injuries
    Pre-school children (age 5 and under) and older adults (age 65 and 
older) have the highest fire death rates in U.S.-home fires. Deaths 
from fires and burns are the sixth most common cause of unintentional 
injury deaths in the United States and the third leading cause of fatal 
home injury. Residential fires caused nearly $7 billion in property 
damage in 2006, with fire departments responding to 412,500 home fires 
in the United States. In that same year the lives of 2,580 people were 
lost and another 12,925 (not including firefighters) were injured. 
Approximately half of home fire deaths occur in homes without smoke 
alarms.
    Smoke alarms decrease the risk of death in a home fire by up to 50 
percent. However, one-quarter of U.S. households lack working smoke 
alarms, and those least likely to have an alarm are often at higher 
risk of being injured in a fire.
    The smoke alarm installation and fire safety education programs--
funded by CDC in 17 States--provide evidence that smoke alarm 
installation programs save lives. A review of homes participating in 
CDC-funded smoke detector installation and fire safety education 
programs found that nearly 1,600 lives have potentially been saved to 
date. Program staff have canvassed over 473,000 homes and installed 
nearly 350,000 long-lasting or lithium-battery powered smoke alarms in 
high-risk homes, including those with children ages 5 years and younger 
and adults ages 65 years and older. Technology development, 
distribution of smoke alarms, and addressing risky behaviors are key to 
reducing the number of fire-related deaths in the United States.
Recreational Injuries (Playground and Sports Safety)
    Children spend a lot of time participating in sports and recreation 
activities. While participation in sports, recreation, and exercise is 
an important part of a healthy, physically active lifestyle, the 
associated injuries present a significant public health problem. 
Injuries related to playground activities account for many of the 
injuries to youth aged 0-9. Although the mortality associated with 
these activities is not high (an average of 13 playground deaths per 
year from 1999-2001,\2\ more than 200,000 children visit emergency 
departments for treatment of a playground injury each year.
---------------------------------------------------------------------------
    \2\ Tinsworth, D. and McDonald, J. (April 2001). Special Study: 
Injuries and Deaths Associated with Children's Playground Equipment. 
Washington, D.C.: U.S. Consumer Product Safety Commission. http://
www.cpsc.gov/LIBRARY/Playgrnd.pdf.
---------------------------------------------------------------------------
    According to the CPSC's Public Playground Safety Handbook, 79 
percent of playground injuries are due to falls from playground 
equipment. Fractures to upper limbs are the most common type of injury. 
Half of all playground injuries occur in schools and sporting 
facilities.\3\ For sports-related injuries, more than half are 
sustained by youth between the ages of 5-18, with boys having higher 
rates of injury than girls.\4\ Furthermore, CDC estimates that as many 
as 3.8 million sports and recreation-related concussions occur every 
year. A concussion is a brain injury caused by a bump or blow to the 
head, and can have severe long term consequences for children. 
According to the Consumer Product Safety Commission's (CPSC) economic 
data, the medical costs of sports and recreational injuries to children 
under age 18 years were over $11 billion in 2003. Including parents' 
work losses, pain and suffering, and product liability and legal fees, 
this societal cost was approximately $121 billion in 2003.\5\
---------------------------------------------------------------------------
    \3\ Conn JM, Annest JL, Gilchrist J. Sports and recreation-related 
injury episodes in the U.S. population, 1997-1999. Inj Prev 2003; 9(2): 
117-123.
    \4\ Non-fatal Traumatic Brain Injuries from Sports and Recreation 
Activities--United States, 2001-2005; MMWR 2007.
    \5\ CPSC Directorate for Economic Analysis 2000; CPSC 2003.
---------------------------------------------------------------------------
    A CDC-sponsored School Health Taskforce produced recommendations to 
schools to develop, teach, implement, and enforce safety rules to 
address recreational injuries. Additionally, CDC has been instrumental 
in producing appropriate educational materials for parents and youth 
sports coaches in the assessment, management and prevention of 
traumatic brain injury or concussions. The ``Heads Up: Concussion in 
Youth Sports'' initiative offers information to youth sports coaches 
and parents to help ensure the health and safety of young athletes. 
Furthermore, CDC developed the Acute Concussion Evaluation (ACE), a 
tool for physicians to assess and manage patients with concussions.
                               conclusion
    There is now a strong and growing scientific basis for childhood 
injury and violence prevention and control. Injuries and violence do 
not have to be an accepted risk--lives can be saved and injuries can be 
prevented. Public health can promote the use of effective prevention 
strategies; yet, where science-based interventions exist, they are too-
often not widely disseminated. This is equivalent to developing a life-
saving medication but not telling physicians or patients that it is 
available, not packaging the product for public use, not having skilled 
pharmacists to dispense the medication, and not providing guidance 
about the management of its effects. To save lives, consumers and 
providers need support for adopting and maintaining interventions over 
time. To effectively address the issue, CDC is developing national 
initiatives and other large-scale approaches to support and expand 
current research, improve program evaluation and promote widespread 
adoption and use of effective preventative measures. Most injuries are 
completely preventable and thus should never happen.
    Thank you for the opportunity to discuss these important public 
health issues today. Thank you also for your continued interest in and 
support of CDC's injury prevention activities.
    I will be happy to answer any questions.

    The Chairman. Good. Well, thank you very much.
    Let me ask you, what do you think would be your estimate if 
each of the States were to put in an effective kind of program, 
what are we talking about in terms of sort of resources? What 
would be just round figures?
    Ms. Arias. CDC is currently funding 30 States to implement 
a myriad of intervention programs. One of the things that we 
are trying to do is focus on those child programs. We would 
like to be able to extend that to all 50 States and territories 
and would be happy to then get those numbers to you as a 
follow-up question.
    The Chairman. OK. Yes, would you? So you are in 36?
    Ms. Arias. Thirty.
    The Chairman. Thirty now, and if they had--do you have a 
model? Do you have a model program that you put--
    Ms. Arias. There are various--yes, we do. The State 
Territory Program Directors Association has come up with models 
for how it is that State departments can essentially set up 
those programs to be as effective not only in surveying and 
monitoring the issue of injury among kids over time, but also 
in then disseminating and supporting the implementation of 
those programs.
    We also have, with their help, gathered a number of success 
stories of States that have done a particularly excellent job 
and then can be replicated in other States as well.
    The Chairman. Let me ask you, how do you go about--do you 
get a hold of the States, the States get a hold of you, a mix 
of both? Do you look at States that haven't been in touch with 
you recently and recommend that they do? Or how do you proceed?
    Ms. Arias. That is a great question. We do a combination of 
both. We certainly make information available to all States of 
the resources that we do have and how those resources can be 
employed.
    Because we are not able to essentially directly support all 
States, what we do with the States we can't support is reach 
out to them and find out what are technical assistance or other 
kinds of resources that we can make available to them. Also how 
is it that in future competitions, for example, they may be 
able to then compete more successfully to get that kind of 
funding.
    The Chairman. Just finally, how are we doing in 
Massachusetts? I know you never should ask a question you don't 
know an answer to, but let me hear. How are we doing? What 
specifically--maybe just specifically, I will ask you for the 
record, but do you know offhand how we are doing up there and 
what we ought to be doing better?
    Ms. Arias. Yes. Massachusetts does quite well, and we can 
send you specific information about all the programs that we 
do----
    The Chairman. OK.
    Ms. Arias [continuing]. Fund across the lifespan and in 
different settings.
    The Chairman. Yes, if you could, just give me what they are 
doing and the areas that you think can be strengthened.
    Ms. Arias. OK.
    The Chairman. I will be glad to get in touch with the 
Governor, too, and see if we can't make some progress.
    Ms. Arias. Excellent.
    The Chairman. Thank you.
    Senator Isakson. Thank you very much, Chairman Kennedy.
    Did I hear your testimony correctly that the cost annually 
is $51 billion?
    Ms. Arias. Those are lifetime costs.
    Senator Isakson. Those are lifetime costs?
    Ms. Arias. Yes. So if we project----
    Senator Isakson. The results of those injuries, like the 
young lady I talked about who is a quadriplegic. The cost of 
her care the rest of her life, that is a part of that number?
    Ms. Arias. Yes, sir. Even changes in productivity as a 
result of those injuries.
    Senator Isakson. Right, and that is incalculable, I guess, 
in terms of the productivity loss.
    What is the most common accident today?
    Ms. Arias. It usually is motor vehicle crashes. So that 
really is the leading cause of deaths for sure. For the 
unintentional, it depends on the age range. For younger kids, 
it tends to be fall. But really, motor vehicle crashes and 
traffic-related issues are the primary contributor to those 
figures.
    Senator Isakson. Are you in CDC in Atlanta?
    Ms. Arias. Yes, we are.
    Senator Isakson. Good, well, welcome. We are neighbors.
    On reaching our kids and reaching, in many cases, our 
adults, when I chaired the State Board of Education in Georgia, 
we found out the best way to communicate was through the kids, 
and particularly starting at the elementary school, in terms of 
good diet, safety practices, even in the enrollment of kids in 
SCHIP.
    When that first started back in 1996, and I chaired the 
Board of Education, we had a very low enrollment rate until we 
used the schools to educate the kids to go home and tell mom 
and dad, ``hey, this insurance is available if you will go down 
and sign up''.
    So an answer in response to Senator Kennedy's question, I 
think the single-best conduit to get reinforced safety and good 
health practices and everything else is through the public 
schools and through public education. I know in Georgia, we 
have got Superintendent Kathy Cox, who has done a good job in a 
number of areas like that. I would recommend any time CDC can 
or your part of CDC can get that information and use the State 
centers of education, the better that information will get 
disseminated.
    Ms. Arias. Yes. No, that is an excellent point. Both on the 
unintentional side and even on violence issues related to 
safety in schools, we have traditionally focused significantly 
on school programs and how it is that those messages and what 
kind of tools teachers and other school personnel need in order 
to deliver those messages.
    The other is, of course, trying to deliver them as early as 
possible. So, if possible, working with elementary school-age 
kids so that they can then develop those behaviors very early 
so that by the time they reach high school, where they are a 
little more autonomous, are engaging in the kinds of behaviors 
that are going to safeguard them.
    Senator Isakson. I remember when my youngest son, Kevin, 
was in some elementary school grade, and he came home with a 
clay thing that he had made. It was an ashtray, and he gave it 
to me. At the bottom, he had written on it ``don't smoke.'' You 
know, one of the great things for kids to do. But this is a 
very impressionable time in their lives, but also it helps us 
to make impressions on them that will save them from many 
dangers in the future.
    So we appreciate what you are doing, and thank you for 
being here.
    Ms. Arias. Thank you.
    Senator Dodd. Doctor, just a couple of things. One is to 
what extent do you work at all with the entertainment industry? 
We talk about influences on children, and obviously there's 
programming, cartoons, all sorts of things. To what extent, I 
mean, is there an awareness that a lot of repetition or 
imitation of important messages occurs? Obviously, parents have 
a responsibility to warn their children about what they can and 
cannot do.
    But do you get any cooperation? Are they helpful at all in 
this?
    Ms. Arias. They are very helpful, both in terms of working 
with us directly and then working through our partners as well, 
whether it is print media or television or others, trying to 
look for opportunities to deliver those safety messages. For 
example, a partnership with Parents magazine potentially this 
coming year on safety issues across the lifespan.
    We are now in the process of also reaching out to Sesame 
Street Workshop. Walt Disney, who has done an excellent job of 
addressing the issue, for example, of residential fires and the 
prevention of fires in the home. So that the entertainment 
industry has a significant and strong interest in being helpful 
in that way.
    Senator Dodd. It is an average of 430 deaths a month from 
accidental injury. Tell me about how those numbers have changed 
in the last few years. And do me a favor as well, break down 
that number. It seems like there is an inordinate amount of 
reporting lately on violence, gun violence and the like. Please 
share with us your thoughts on that and what CDC is doing about 
it and how cooperative are States being in some of the issues 
where you are trying to reduce the level of gun violence in our 
schools.
    Ms. Arias. The focus today was on unintentional injuries 
primarily because it is by far the most significant contributor 
to injuries and deaths among kids. However, violence is a 
significant issue for children and adolescents and young 
adults. For example, we know that homicide is the fourth-
leading cause of death for kids between ages----
    Senator Dodd. Is what? I am sorry?
    Ms. Arias. Homicide is the fourth-leading cause of death--
--
    Senator Dodd. Fourth leading.
    Ms. Arias [continuing]. For children between the ages of 1 
and 9. So that is a pretty startling statistic. Most of that, 
of course, is the result of child maltreatment, which includes 
anything from physical abuse, sexual abuse, and then neglect.
    What we are doing, very similar to what we do with 
injuries, is trying to identify who are the kids who are at 
high risk for that or who are the families that are at high 
risks for those kinds of issues, and then what are the most 
effective ways of preventing those issues from happening?
    We know from the research and the science that we have 
supported at CDC and that others have conducted that parenting 
programs are significant in order to prevent child maltreatment 
and also to prevent a number of negative health outcomes for 
kids. That is, programs that essentially teach parents not only 
how to discipline their children, but also how to interact in a 
positive way with their children and sort of help them develop 
in the way that they want.
    In addition to those parenting programs, early home 
visitation programs have also been shown to be incredibly 
successful, looking at a reduction of about 40 percent in child 
maltreatment among families who have been enrolled in those 
programs. So that very similar to unintentional injuries, it is 
a big problem, but fortunately, we know what can be done. 
Currently, it is then a matter of making sure that communities 
are equipped to be able to address the issue by having those 
things available to them.
    Senator Dodd. Yes. I wonder if you might address as well 
the current state of collaboration between the Federal agencies 
on coordinated injury prevention approaches, particularly 
between the CDC and HRSA. How is that working?
    Ms. Arias. It is working quite well. Usually, it winds up 
being topic specific, so that if we have an issue that we are 
pursuing--for example, whether it is shaken baby syndrome or 
car seats--finding other Federal agencies, either within the 
Department of Health or other Federal agencies who have a role 
in making sure that that happens.
    One of the things we do in public health is recognize that 
everything we do is multisectorial. It is not just about public 
health. Usually there are a number of other sectors that have 
to essentially coordinate with what we are doing in order to be 
effective. From the very beginning, we reach out to them, make 
sure that we do coordinate. Otherwise, we are going to 
essentially hamper our chances of success in addition to then 
maybe getting in their way.
    Senator Dodd. Is your general conclusion that they are 
receptive, the various Federal agencies?
    Ms. Arias. Yes, they are. What we try to do is be very 
clear about what is the value added that each of us brings to 
the table. In the case of CDC, we know that there are certain 
things that we do that usually are not replicated in other 
agencies and that we have particular expertise.
    Primarily, that has to do with the surveillance issues, 
making sure that we support the systems to collect the 
information to find out what the problem is, where the problem 
exists and, therefore, where we should be investing our 
resources. The other is in the evaluation of those programs. So 
that other agencies are ideally equipped and suited to be able 
to disseminate programs, but not necessarily support the 
evaluation of those programs once they are implemented in a 
community.
    Of course, we are very interested in making sure that we 
document the effect of those programs when they are implemented 
to make sure that we want to continue with that investment and 
not have to change it in order to improve success.
    Senator Dodd. Yes. And last, let me just mention that 
Senator Kennedy raised this and I think Senator Isakson did as 
well, touched on it, and that is cost. We are looking--as a 
parent of these young children, just going out and buying car 
seats and other safety equipment, it is expensive. And if you 
are a family that is struggling, those costs can be 
astronomical and can become prohibitive in some cases.
    I know there are places you can go to get secondhand and 
used equipment, good equipment, by the way. It doesn't mean it 
is faulty in any way. What recommendations and thoughts do you 
have? Because so many people today are struggling to make these 
ends meet. They want to keep their children safe, and yet these 
objects are----
    Ms. Arias. Yes. We have explored various options for 
reducing those costs, again to make sure that everybody does 
have the benefit of the tools that are available to protect 
their children. Most of what we have looked at and actually 
have done is building those partnerships.
    So whatever resources we can bring to the table and then 
really focusing on the private sector as well so that we have 
supported programs, for example, where a Wal-Mart or a Target 
may actually donate the equipment. Health departments then 
basically take charge of distributing those and educating 
individuals about how to use that equipment.
    The other is to the extent to which medical services can 
actually cover the cost of that equipment. So we are looking at 
those models as a way of then making sure that these things are 
accessible to all families.
    Senator Dodd. Thank you very much.
    Senator Isakson. Mr. Chairman, can I add something?
    The Chairman. Please.
    Senator Isakson. Senator Dodd asked a question, I know, Dr. 
Arias, I believe you would be aware of this. But last year, 
there was an attempt by a member of the Senate to delete in the 
appropriations act for CDC a line item for what I call the 
Hollywood Help Desk at CDC.
    But CDC has, under Dr. Gerberding, established a working 
group that works with television writers and screenwriters to 
make sure that when they put health-related, safety-related, 
any type incident like that that is depicted in a film, to try 
and get them to depict it in the proper way, both negatively, 
if it is a bad thing for someone to do, as well as positively, 
if it is the right way to handle it.
    So CDC has been a leader in trying to communicate with 
Hollywood and television to make sure that what people are 
seeing and influenced by so much at least has credible 
information in it and that hopefully depict the type of outcome 
we would all want to have.
    The Chairman. That is good. That is useful.
    Let me just ask a final question, do you look at the 
Advertising Council, too? Have you tried the Advertising 
Council to get them sort of involved? They take on various 
projects, and they are--when they get behind it, they have got 
enormous resources and interests. But it seems to me there may 
very well be interest in the Ad Council. See if they would take 
on something like this, you might take a look.
    And we might inquire. Maybe that is a job for us to inquire 
of the Ad Council, and we might be back in touch with you about 
how that might be suggested, recommended. But if we could get 
them involved in it, too, it might be of value and use to all 
of the different groups that are doing a lot of good work.
    So I guess we will follow up. I am just rambling along 
here. But we will follow up with you and see if there is 
something that makes some sense.
    Ms. Arias. Most definitely.
    The Chairman. OK. Thank you very much.
    Senator Dodd. Thank you, Doctor.
    The Chairman. Go ahead. You have got the second panel 
there.
    Senator Dodd. Alan Korn, I want to welcome you. Alan, thank 
you for being here. He is the Director of Public Policy for 
Safe Kids Worldwide.
    We invite Justin to come on up and join us as well. Justin, 
come on up here. Justin is a student from The Boys Latin School 
in Baltimore, MD, and we thank Justin for joining us.
    Meri-K Appy, did I pronounce that correctly? Meri-K is 
President of Home Safety Council, and we thank you for being 
with us.
    Amber Williams is the Executive Director of State and 
Territorial Injury Prevention Directors Association in Atlanta, 
GA. You have got a lot of constituents here.
    Senator Isakson. Absolutely. We are on top of this.
    Senator Dodd. I know. Justin, how are you? You doing okay? 
Good man. Good to have you with us. Got off school today. So we 
can keep you talking all day. You don't have to go to school 
today.
    [Laughter.]
    The Chairman. We have got some young observers here, back 
here. Do they want to stand up? Some young children, I see them 
in the second row. Are they your sisters? You are going to 
introduce them for us? Good morning.
    Senator Dodd. Good morning.
    The Chairman. Thank you for being here.
    Senator Dodd. Well, we will begin, Alan, with you. Thank 
you for being with us this morning.

 STATEMENT OF ALAN KORN, DIRECTOR OF PUBLIC POLICY, SAFE KIDS 
               USA INTERNATIONAL, WASHINGTON, DC

    Mr. Korn. Sure. Thank you very much.
    There we go. Safe Kids appreciates the attention this 
committee has thrown toward this issue over the past 20 years. 
I would be remiss if I did not point out that this committee 
helped us at our launch 20 years ago--Senator Dodd, you were 
chair of that subcommittee when we did it--at our 10th, 15th, 
and now 20th anniversary.
    This committee has played a tremendous role in helping us 
with the good news that we reported earlier this week, with the 
help of a lot of groups and the Federal Government. It has been 
quite remarkable.
    Let me just say one other thing, if I didn't point out--
with your permission, Chairman Kennedy and Senator Isakson--
point out Senator Dodd individually. Senator Dodd, you have 
been thinking about and acting on these issues for 20-plus 
years. It is, if I were to spend the time drawing down the list 
of things that you have done on behalf of injury prevention, we 
would eat up our entire time of the hearing.
    This committee in particular and Senator Dodd specifically, 
so we really do appreciate--
    The Chairman. Is this your witness, Senator Dodd?
    [Laughter.]
    Senator Dodd. But he is going to be at every hearing that 
I----
    Mr. Korn. You always risk pointing out one particular 
Senator, but it is well deserved.
    The Chairman. It is well deserved.
    Mr. Korn. I should say now to rebuild my reputation here a 
little bit, Senator Kennedy, no one has done more, too, for 
public health also. I mean, really.
    The Chairman. There you go. Something nice about Johnny 
Isakson over here, and he will----
    [Laughter.]
    We can say the same about you, Mr. Korn.
    Mr. Korn. Thank you very much.
    The Chairman. Well known. So thank you.
    Mr. Korn. We are smack-dab in the middle of Safe Kids Week, 
which Congress has helped us celebrate for many, many years, 
and I will be very brief. I am not going to read my statement. 
I am just going to make a few points and try to make it as 
informal as possible.
    We released this report earlier this week on Monday here in 
Washington, DC. It has got absolutely, we believe, tremendous 
news in it. It is success that all of us here and all of our 
partners can be very proud of, including the CDC, the CPSC, 
NHTSA, the U.S. Fire Administration, and this committee--and we 
can talk about some of the things that this committee has done 
under your leadership, Chairman Kennedy.
    Over the past 20 years, in two decades, we have seen a 
decrease of 45 percent in the death rate to children. We think 
that is remarkable. In fact, I can't think of--there might be, 
but there is very few of a public health issue that has had 
that kind of success over that really short period of time. I 
mean, it seems like a long time, but two decades, and it is 
remarkable.
    It says to us that we know how to prevent these injuries. I 
brought a lot of visuals. If we get to them, I will be happy to 
talk about them. But we know how to prevent these injuries, and 
every single one of them is preventable, in our view. Always 
with the glass half full, there is a little space yet to go and 
it is half empty. For some reason, it is still the leading 
cause of death in this country. Unintentional injury is 5,200 
deaths a year.
    In fact, is today May 1st? I think it is. We are starting 
trauma season in this country, which is May 1st to the end of 
August. Seventeen children a day will die in this country 
because of an accidental injury during that time period. The 
CDC and public health groups call it the trauma season, and it 
is for a reason. They are all preventable.
    We are celebrating Safe Kids Week this week with activities 
around the country, with our support of our founding sponsor, 
Johnson & Johnson, who, as you know, Senator Kennedy and Dodd, 
have been with us for so long in our efforts. Doing events in 
Massachusetts, in Connecticut, and Georgia--and here is my 
shout-out to Georgia.
    We have State and local offices all around the country. I 
think a lot of our staff here is in the audience, our very best 
ones are in Georgia. They really know how to do the job there. 
They are doing child safety seat----
    The Chairman. Have you ever thought of running for office?
    [Laughter.]
    Senator Dodd. As a Democrat.
    Mr. Korn. I see what happens, and I am not so sure I want 
to expose myself to that. But they are doing child safety seat 
checkup events. They are doing bicycle helmet checks this week 
and giveaways, personal flotation device giveaways, and they 
are very good.
    That is the type of thing that Dr. Arias was mentioning, 
about that collaboration, that partnership to get the job done. 
I will defer to my other colleagues here.
    [The prepared statement of Mr. Korn follows:]
                    Prepared Statement of Alan Korn
    My name is Alan Korn, and I am the Director of Public Policy and 
General Counsel for Safe Kids USA, a member country of Safe Kids 
Worldwide. Safe Kids thanks the Senate Health, Education, Labor, and 
Pensions Committee, and in particular Chairman Kennedy and Ranking 
Member Enzi for holding a hearing on childhood injury prevention. We 
have all come a long way over the past 20 years in protecting children 
from unintentional injuries and deaths. Despite the many successes, 
``accidents'' are still the No. 1 killer of children ages 1-14 in the 
United States. Clearly there is so much more to do. Safe Kids hopes 
that the attention fostered by both the roundtable and the activities 
surrounding Safe Kids Week 2008 will prove to be the catalyst we all 
need to redouble those efforts that we know work, improve upon others 
that missed the mark and try new initiatives, both government-based and 
otherwise, that hold the promise of saving children's lives.
                   i. history of safe kids worldwide
    Safe Kids Worldwide is the first and only international 
organization dedicated solely to addressing an often under recognized 
problem: More children ages 1-14 in the United States are being killed 
by what people call ``accidents'' (motor vehicle crashes, fires, 
drownings and other injuries) than by any other cause. Formerly known 
as the National SAFE KIDS Campaign, Safe Kids Worldwide unites more 
than 450 coalitions in 16 countries, bringing together health and 
safety experts, educators, corporations, foundations, policymakers and 
volunteers to educate and protect families against the dangers of 
accidental injuries. Our USA network includes coalitions in all 50 
States and the District of Columbia, including outstanding programs in 
both Massachusetts and Wyoming.
    Founded in 1987 by the Children's National Medical Center and with 
support from Johnson & Johnson, Safe Kids Worldwide and its member 
country, Safe Kids USA, relies on developing injury prevention 
strategies that work in the real world--conducting public outreach and 
awareness campaigns, organizing and implementing hands-on grassroots 
events, and working to make injury prevention a public policy priority.
    This year marks our 20th anniversary of our efforts, which has 
resulted in the significant reduction of accidental childhood injury-
related deaths in the United States. We have, over the years, 
reinforced the ways that parents, caregivers, State and Federal 
policymakers, and communities can continue to promote children's 
safety. We have released a comprehensive report to the Nation 
demonstrating how far we have come in 20 years, and how far we still 
have to go. In addition, the week of April 26-May 4, is Safe Kids Week 
and Safe Kids coalitions across the country will be holding local 
community outreach events to spread awareness about child safety, such 
as bike helmet rodeos, health fairs and car seat check up events.
    The ongoing work of Safe Kids coalitions reaching out to local 
communities with injury prevention messages has contributed to a 
decline in the childhood unintentional injury death rate since 1987. 
However, with more children dying from accidental injury than from 
cancer, heart disease and birth defects, Safe Kids Worldwide and its 
member countries remain committed to reducing unintentional injury by 
implementing prevention strategies and increasing public awareness of 
the problem and its solutions.
    Safe Kids has been proud to work with the Senate Health, Education, 
Labor, and Pensions Committee over the years to increase the knowledge 
and understanding of proper child safety practices. This committee has 
addressed childhood accidental injury through hearings and media 
outreach events for Safe Kids' other milestones, such as our launch in 
1988 and our 10th and 15th anniversary celebrations. We thank the 
committee once again for being a part of Safe Kids' history and most 
importantly, for helping us to promote programmatic, educational and 
legislative interventions to ensure that every child in this country is 
protected from their most serious public health problem--accidental 
injury.
     ii. findings from safe kids' report to the nation: trends in 
 unintentional childhood injury mortality and parental views on child 
                                 safety
A. Safe Kids USA's 2008 Report
    Safe Kids marked our anniversary by releasing a comprehensive 
report to the Nation demonstrating how far we have come in 20 years, 
and how far we still have to go. Entitled, Report to the Nation: Trends 
in Unintentional Childhood Injury Mortality and Parental Views on Child 
Safety, the report examines accidental injury in the United States and 
its impact on children by age, gender and race, and reviews the changes 
in unintentional injury fatality rates for children ages 14 and under 
in areas such as motor vehicle occupant injuries, drownings and 
suffocation (which includes strangulation and choking).
B. Major Findings
    Major findings from the report include:

    1. The unintentional childhood injury fatality rate among children 
ages 14 and under has decreased in the United States by 45 percent 
since 1987.
    2. Despite this decline, unintentional injury remains the leading 
cause of death among children ages 1 to 14 in the United States. In 
2005, 5,162 children ages 14 and under died from an unintentional 
injury, and 6,253,661 emergency room visits for unintentional injuries 
in this age group occurred in 2006.
    3. The unintentional injury fatality rate has declined in most risk 
areas. Some of the greatest improvements have been made in prevention 
of bicycle injuries (down 73 percent), fire/burn injuries (down 68 
percent) and pedestrian injuries (down 62 percent). The four leading 
causes of death from accidental injuries to children 14 and under are 
suffocation (19 percent), motor vehicle occupant injuries (16 percent), 
drownings (16 percent) and pedestrian incidents (11 percent).
    4. Unfortunately, the suffocation rate has a documented increase of 
21 percent. This is largely the result of a re-categorization of the 
cause of death driven by an improvement in the quality of death scene 
investigations that is occurring at various levels across the country. 
Previously, many of these deaths were categorized as Sudden Infant 
Death Syndrome (SIDS). With the improved investigations, more cases are 
being seen where a child suffocates from soft pillows, mattresses, or 
mattress coverings in his/her crib or from bed-sharing with a parent.
    5. Children ages 4 and under have the highest fatality rate as well 
as the highest number of deaths (2,747 in 2005). Between 1987 and 2005 
there has been a 35 percent decrease in fatal unintentional injuries in 
this group.
    6. The fatality rate from unintentional injury is higher among 
males than females, as is the actual number of deaths. In 2005, 
approximately 3,000 boys and 2,000 girls ages 14 and under died from 
unintentional injury.
    7. There are large disparities between the fatality rates among 
children of different races and ethnicities. American Indian/Alaskan 
Native children have the highest fatality rate from unintentional 
injury at 15.3 per 100,000, and Asian/Pacific Islander children have 
the lowest fatality rate at 4.24 per 100,000. These disparities have 
been consistent since 1987.
    8. Fatality rates from unintentional injury declined in each of the 
four regions of the United States between 1987 and 2005. The largest 
decrease, almost 60 percent, was in the Northeast, while the Midwest 
had the smallest decrease, 40 percent. Since 1987, the South has 
consistently had the highest rate of fatality, 10 per 100,000 in 2005, 
and the Northeast has had the lowest, 4.56 per 100,000.
            iii. advancements in child safety over the years
    While the fatality rate in the United States from unintentional 
injury in children ages 14 and under has declined by 45 percent since 
1987, and significant progress has been made in most risk areas, there 
is still a long way to go. Every year, more than 5,000 American 
children ages 14 and under die from unintentional injury. Deaths from 
suffocation, motor vehicle crashes and drowning still represent a 
majority of these deaths--and the vast majority of these deaths could 
have been prevented.
A. Motor Vehicle Occupant Safety
    1. Problem: Car crashes pose a significant risk for injuries and 
death to children. Although the motor vehicle occupant death rate among 
children ages 14 and under declined 49 percent from 1987 to 2005, motor 
vehicle crashes remain the leading cause of death among children ages 3 
to 14 in the United States. In 2005, an estimated 842 children ages 14 
and under died unintentionally as motor vehicle traffic occupants. 
Additionally, in 2006 an estimated 190,346 emergency room visits were 
for motor vehicle traffic occupant injuries to children ages 14 and 
under.
    In addition to motor vehicle crashes, children are also at risk of 
injury or death from being left unattended in closed vehicles. Each 
year from 1998 to 2004, an estimated 33 children died from heat stroke 
after being left unattended in a vehicle. Between 1987 and 1998 there 
were 19 reported deaths to children under age 7 due to car trunk 
entrapments, where children were playing in the trunk and closed the 
door. Children can also be backed over by unknowing drivers; from 2001 
to 2003 approximately 7,475 children (2,492 per year) aged 1 to 14 
years were treated for non-fatal motor vehicle backover injuries in 
emergency departments. Most backovers occurred at either home or in 
driveways or parking lots; 47 percent occurred at home, and 40 percent 
occurred in driveways or parking lots.
    2. Solution: The increased use of car seats has contributed to the 
reduction in injury and death rates from motor vehicle accidents. Adult 
seat belts do not adequately protect children under age 8 from a crash 
injury so car seats, when used appropriately, are the most effective 
safety devices to protect children. Research demonstrates that 
correctly installed car seats can reduce fatal injury by 71 percent for 
infants less than 1 year of age and by 54 percent for toddlers ages 1 
to 4. Booster seats for older children reduce the risk of injury by 59 
percent. It is recommended that children ride on booster seats, in the 
rear seats of a vehicle, until they reach 49" in height and weigh 
between 80-100 pounds. Many children are moved prematurely to seat 
belts when they should still ride on booster seats.

    a. Education: The nationwide proliferation of car seat education 
and distribution programs--and in particular, increased availability of 
child restraint inspection/
installation opportunities utilizing certified technicians--has 
increased the prevalence and proper usage of these vital safety 
devices.
    Safe Kids has a national program sponsored by General Motors to 
educate parents and caregivers about the importance of properly 
restraining children on every ride. Since 1996, the General Motors 
Corporation has served as Safe Kids Buckle Up's exclusive funding 
source and helped build Safe Kids Buckle Up into a multifaceted 
national initiative, bringing motor vehicle safety messages to children 
and families through community and dealer partnerships. In October 
2004, Chevrolet became the lead partner of Safe Kids Buckle Up, 
bringing an added dimension to the promotion of Safe Kids Buckle Up 
activities.
    Since the program's inception, more than 13 million people have 
been exposed to Safe Kids Buckle Up events and community outreach 
efforts, and child passenger safety specialists have examined more than 
915,250 seats and donated 365,000 seats to families in need. The 
program includes car seat check up events, mobile car seat check up 
vans, child safety seat inspection stations, child safety seat 
distribution programs, technical child passenger safety trainings, 
educational workshops, legislative and enforcement efforts to enact or 
publicize child restraint laws and a toll-free hotline for parents and 
caregivers to access child safety information.
    b. Enactment and Enforcement: Over the years improvements in child 
occupant protection and safety belt laws have proven effective at 
increasing restraint use and protecting children. The first child 
occupant protection law was passed in Tennessee in 1978. Since then, 
all States have passed laws requiring young children be restrained in 
car seats in motor vehicles. The first booster seat law to protect 
older children went into effect in California on January 1, 2002. Since 
then, 43 States, including Washington, DC, have improved upon their 
restraint law to require some older child passengers to ride properly 
restrained in a booster seat. Significantly, Massachusetts became the 
last State in the Northeast to pass a booster seat law. Governor Deval 
Patrick signed the bill into law on April 11, 2008. Wyoming passed 
their law in 2003 and has one of the strongest child passenger safety 
laws in the Nation.
    Primary enforcement of seat belt laws is also important. Currently, 
seat belt use laws in only 26 States and the District of Columbia are 
subject to primary enforcement. These laws allow a citation to be 
issued if a police officer simply observes an adult or child riding 
improperly without a safety belt. Primary enforcement has proven 
effective in increasing restraint use for both adults and children. In 
2007, seat belt use was 87 percent in primary law States versus 73 
percent in secondary law States.
    In addition, several States have enacted safety laws that protect 
children in and around cars, including 14 States that prohibit leaving 
children unattended in a motor vehicle.
    The National Highway Traffic Safety Administration has also 
contributed greatly to the success. Improvements to the Federal Motor 
Vehicle Safety Standard Number 213, the LATCH system of car seat 
installation, ease of use ratings for child safety seats--along with 
their many government-funded public education campaigns supported by 
the 2005 Federal SAFETEA-LU (Safe, Accountable, Flexible, Efficient 
Transportation Equity Act: A Legacy for Users) law--have made child 
safety seats more effective, user-friendly and has helped Safe Kids 
spread the important message of consistent and correct car seat usage.
    In addition, the National Transportation Safety Board has helped 
promote this vital message. Their Most Wanted List of Traffic Safety 
Improvements has consistently included the recommendation for State 
governments to upgrade their child passenger safety laws. The Board has 
taken a strong role in encouraging these changes through their Advocacy 
Center.
B. Bicycle and Wheeled Sports Safety
    1. Problem: Although the bicycle unintentional injury death rate 
among children ages 14 and under declined by 73 percent from 1987 to 
2005, bicycle injury remains a major cause of child mortality and 
morbidity. In 2005, an estimated 121 children ages 14 and under died 
from unintentional bicycle injuries. Additionally, in 2006 an estimated 
226,409 emergency room visits by children 14 and under were for 
unintentional bicycle-related injuries.
    Other wheeled sports such as skateboarding and skating continue to 
grow in popularity, and a significant rate of child injury is 
associated with these activities. According to the U.S. Consumer 
Product Safety Commission (CPSC), in 2004, more than 46,200 emergency 
room visits by children 5 to 14 years old were for injuries from inline 
skating and roller skating. In the same year, more than 43,100 
emergency room visits by children 14 and under were for injuries 
involving non-powered scooters. Nearly 60,300 emergency room visits by 
children 5 to 14 years old were for skateboarding injuries. The most 
serious injuries and many of the deaths are due to head injuries.
    Quite simply, not enough children are wearing helmets and other 
protective gear when using bikes, scooters, in-line skates or 
skateboards.
    2. Solution: Public health interventions such as education about 
the proper use of a bicycle helmet, safety campaigns, and environmental 
changes, have likely helped reduce the child injury death rate from 
bicycle and other wheeled sports. Bicycle helmets can help protect 
children from head injuries while participating in bicycle and wheeled 
sports. In fact, bicycle helmets are 88 percent effective in preventing 
serious brain injury, yet fewer than half of bicycle riders wear one.

    a. Education: In addition to promoting helmet use, advocates and 
researchers recommend creating a comprehensive bicycle safety campaign 
that includes education about safe riding practices and provides 
helmets at a discounted cost to those in need. Community-based 
interventions that include making environmental changes, educating 
children about helmets and safe riding practices, and enforcing bicycle 
helmet laws, have proven to increase helmet use and decrease bicycle 
injuries.
    Environmental changes that make streets safer also protect children 
when they are biking, skateboarding, or skating. A nationwide coalition 
of diverse members and organizations is currently pushing for States, 
cities and towns to build road networks that include safety 
improvements. This coalition stated that a recent survey found 71 
percent of adults walked or rode their bicycles to school as a child, 
but only 17 percent of their own children currently do so. Although 
decreased biking also decreases a child's risk of injury, the goal is 
to increase participation in these activities among children in a safe 
way. More children are likely to bike to school when there are 
sidewalks or footpaths, safe street crossings, and when there are 
enforced school zones of vehicle speed.
    b. Enactment and Enforcement: Legislation requiring helmet use and 
strict enforcement has positively impacted bicycle helmet use among 
children. California had the first State helmet law, which became 
effective in 1987. The enactment and enforcement of mandatory helmet 
legislation for children (in 21 States, the District of Columbia and 
over 150 localities across the United States) has likely contributed to 
the decline in bicycle-related injuries and deaths from 1987 to 2000.
    Various studies have shown bicycle helmet legislation to be 
effective at increasing bicycle helmet use and reducing bicycle-related 
death and injury among children covered under the law. One study showed 
that in the 5 years following the passage of a State-mandatory bicycle 
helmet law for children ages 13 and under, bicycle-related fatalities 
decreased by 60 percent. Police enforcement increases the effectiveness 
of these laws. In addition, eight States and Washington, DC now require 
children to wear a helmet while participating in a wheeled sport (e.g., 
scooters, inline skates, skateboards). Other States should follow suit.
    Over the years, helmets used by children and required by State and 
local laws have become much more effective. In 1994, Congress required 
the CPSC to establish performance standards for bike helmets. These 
better engineered helmets have contributed to our success in lowering 
the injury death rate.
    In addition, the enactment of SAFETEA-LU included the establishment 
of Safe Routes to Schools, a federally funded program designed to make 
it safer for children to walk or bike to school. Through this program 
and with grant monies, States can fix sidewalks, execute traffic-
calming and speed-reduction measures, improve pedestrian and bicycle 
crossings, and conduct public education campaigns to encourage children 
to walk or bike to school.
C. Poisoning Prevention
    1. Problem: The childhood unintentional poisoning death rate among 
children ages 14 and under declined 42 percent from 1981 to 1987 and 
has continued to decline by 21 percent since 1987. However, 
unintentional poisoning is still a serious threat to young children. In 
2005, an estimated 92 children ages 14 and under died from 
unintentional poisonings. Additionally, in 2006 an estimated--71,649 
emergency room visits were for unintentional poisoning injuries to 
children 14 and under. In 2005 nearly 63,000 children under age 5 were 
treated for unintentional medication poisoning. More than 1.2 million 
unintentional poisonings among children ages 5 and under are reported 
to U.S. poison control centers. In addition, according to the Centers 
for Disease Control and Prevention, from 1999-2004, 135 children ages 
14 and under died from unintentional, non-fire related CO poisoning.
    Carbon monoxide is a hidden hazard for children and families. CO is 
produced when any fuel is incompletely burned--potentially resulting in 
flu-like illnesses, such as dizziness, fatigue, headaches, nausea, and 
irregular breathing. Common fuel-burning appliances, like furnaces, 
stoves, fireplaces, clothes dryers, water heaters, and space heaters 
can produce lethal amounts of CO under certain conditions. Carbon 
monoxide poisoning mimics other illnesses so it can sometimes be 
difficult to diagnose. CO poisoning symptoms include headache, 
dizziness, weakness, nausea, vomiting, chest pain, confusion, loss of 
consciousness and death to unborn babies. Infants are more susceptible 
to the effects of CO. Carbon monoxide detectors are essential to have 
in homes and are effective in preventing deaths from carbon monoxide 
exposure.
    Lead paint poisoning is an additional danger to children. In 
children, lead poisoning can cause brain damage, impair mental 
functioning, retard mental and physical development and reduce 
attention span. Because the early symptoms of lead poisoning are easy 
to confuse with other illnesses, it is difficult to diagnose lead 
poisoning without medical testing. Early symptoms may include 
persistent tiredness, irritability, loss of appetite, stomach 
discomfort, reduced attention span, insomnia, and constipation. Failure 
to treat children in the early stages can cause long-term or permanent 
health damage.
    2. Solution: A multitude of factors have contributed to the reduced 
number of deaths from poisonings, including child-resistant packaging 
for medications and household cleaning products, educational programs, 
increased accessibility of poisoning prevention information, and 
treatment/care advances. For unintentional medication exposures, 
manufacturers are being encouraged to further improve container 
designs, allowing more convenient access for the user, especially 
seniors, while also serving as a barrier to children gaining entry.
    Intensive efforts to reduce lead in consumer products such as 
gasoline and paint have helped to protect children from lead poisoning. 
However, lead paint continues to be an issue in older homes, especially 
in low-income apartment buildings, where children can ingest paint 
chips or inhale paint dust. Children also can be poisoned by lead if 
they lick their fingers after they interact with products that are 
coated with lead paint. Recently, lead paint in toys has posed a risk 
to children. Significant news coverage and outreach by nonprofits about 
lead in toys has likely increased awareness of this issue.

    a. Education: The Nation's 70 poison control centers historically 
operated with distinct phone numbers for each center. A big advancement 
has been the creation of a new nationwide toll-free number for poison 
control centers. The hotline (1-800-222-1222) was established through 
the passage of the Poison Control Center Enhancement and Awareness Act 
of 2000, a law which originated in the Senate HELP Committee with the 
leadership of Senators Kennedy and DeWine, among others. The hotline is 
available 24 hours a day and 7 days a week to provide assistance with 
poisoning emergencies, questions about a specific poison, or 
information about poison prevention, no matter where the caller is 
from.
    In addition to emergency response, these centers perform public 
education, professional education, data collection and referral 
resources--services which are all supported by the Federal Act.
    b. Enactment and Enforcement: The enactment of laws has protected 
children from unintentional poisoning. The Poison Control Center 
Enhancement and Awareness Act of 2000 also provided much needed funding 
to the centers which were on the verge of having their doors shut due 
to budget shortfalls. In addition, the issuance of the U.S. Food and 
Drug Administration regulation requiring iron-containing products to 
carry a warning about the acute poisoning risk to children has been 
important in protecting kids from poisoning.
    The Federal Government has also banned paint that contains a 
certain amount of lead. The ban protects children from lead poisoning 
that can occur by ingesting paint chips or inhaling paint dust. The 
regulation also includes toys or other children's products as well as 
furniture with lead paint.
    The Poison Prevention Packaging Act of 1970, administered by the 
CPSC, mandated child resistant packaging for hazardous products such as 
drugs, certain household cleaners, and some residential use portable 
fuels. The purpose of the act is to protect children under age 5 from 
poisonings and deaths that occur when they open containers of hazardous 
products, and eat or drink the contents. The act has been credited with 
reducing prescription medication deaths in children less than 4 years 
of age by 45 percent from 1974 to 1992.
    In addition, 14 States and some local jurisdictions have passed 
legislation requiring the use of carbon monoxide detectors in some 
homes. However, most State carbon monoxide detector laws only apply to 
newly constructed residences, reinforcing the need for legislation that 
applies to all homes.
D. Fire and Burn Safety
    1. Problem: The unintentional fire/burn death rate among children 
ages 14 and under declined by 68 percent from 1987 to 2005, yet fire 
and burn injury remains the fifth leading cause of child unintentional 
injury-related death. In 2005, an estimated 467 children ages 14 and 
under died from unintentional fire/burn injuries. Fire and flames 
accounted for 460, or 99 percent, of these deaths. Additionally, in 
2006 an estimated 98,760 emergency room visits were for unintentional 
fire/burn injuries to children ages 14 and under including scald, 
thermal, chemical and electrical burns. Scald burns, caused by hot 
liquids or steam, are more common types of burn-related injuries among 
young children, compared to contact burns, caused by direct contact 
with fire, which is more prevalent among older children.
    The majority of scald burns children experience, especially in ages 
6 months to 2 years, are from hot foods and liquids spilled in the 
kitchen or wherever food is prepared and served. Hot tap water accounts 
for nearly 1 in 4 of all scald burns among children and is associated 
with more deaths and hospitalizations than any other hot liquid burns. 
Because younger children have thinner skin, their skin burns at lower 
temperatures and more quickly than adult skin does.
    2. Solution: There are many factors likely involved in the downward 
trend of the child death rate from fire and burn injuries. Most home 
fires started by children begin with playing with lighters or matches 
and the most common items ignited are mattresses, bedding, clothing, 
upholstered furniture, trash or papers. Fortunately, there has been a 
decline in the number of fires set by children playing with lighters 
and matches, most likely as a result of lighters being subject to a 
consumer product safety standard that requires them to be child 
resistant. However, parents still need to be educated to store matches 
and lighters out of children's reach, preferably in a locked cabinet.

    a. Education: In addition, smoke alarms, which cut the chances of 
dying in a residential fire nearly in half, have been promoted as an 
invaluable tool for preventing fire and burn injury. According to data 
from the National Fire Incident Reporting System (NFIRS) and the 
National Fire Protection Association's (NFPA) annual fire department 
experience survey, 96 percent of U.S. homes report having at least one 
smoke alarm. However, 47 percent of fire deaths in one- and two-family 
dwellings and 15 percent of apartment fire deaths resulted from fires 
with no smoke alarms present, reinforcing the need for continued 
promotion of smoke alarms in homes.
    Another factor involved in the downward trend of reduced fire and 
burn-related deaths include intensive public education campaigns by 
Federal agencies such as the CPSC and U.S. Fire Administration, non-
profit advocacy groups like Safe Kids, the National Fire Protection 
Association, the Home Safety Council and the thousands of committed 
fire departments that promote residential fire safety and burn 
prevention. Efforts to educate parents about the importance of checking 
smoke alarm batteries monthly as well as grassroots activities that 
distribute smoke alarms have made a difference. These efforts must be 
continued, with the help of the Federal Government, since most of the 
deaths and injuries to children happen in residential fires in homes 
with no smoke alarms.
    Methods to reduce scald burns include lowering hot water 
temperatures to 120 degrees and keeping hot fluids and liquids away 
from children, especially when cooking. Educational efforts around 
these messages to parents may have contributed to a decline in burn-
related deaths.
    b. Enactment and Enforcement: The 1994 child-resistant lighter 
standard established by the CPSC and the agency's regulations requiring 
that children's sleepwear be flame resistant and self-extinguish if a 
flame causes it to catch fire have reduced fire-related deaths. Since 
the lighter standard has been in effect, the number of child-play 
lighter fires has declined 58 percent and the number of deaths and 
injuries associated with these fires has declined by 31 percent and 26 
percent, respectively.
    For smoke alarms, all States and the District of Columbia have laws 
that require smoke alarms to be used in both new and existing 
dwellings.
E. Drowning Prevention
    1. Problem: Although the childhood drowning death rate declined by 
49 percent from 1987 to 2005, fatal drowning remains the second-leading 
cause of unintentional injury-related death for children ages 1 to 14 
years. In 2005, 810 children ages 14 and under died from unintentional 
drowning, and in 2006, an estimated 3,771 emergency room visits were 
for unintentional drowning injuries to children ages 14 and under. As 
many as 20 percent of near-drowning survivors suffer severe, permanent 
neurological disability. Infants less than 1-year-old drown in 
bathtubs, buckets, or toilets most often, while the majority of child 
drownings between ages 1 to 4 occur in residential swimming pools. 
Older children drown more often in open bodies of water.
    In swimming pools and spas, the suction from drain outlets is 
strong enough to cause entrapment of hair or body parts, and children 
cannot free themselves. From 1985 to 2004, at least 33 children ages 14 
and under died as a result of entrapment in a pool or spa drain, and 
nearly 100 children ages 14 and under were injured. However, because 
entrapment is generally a little-known risk for drowning, it is 
possible that many drowning deaths have not been classified as 
entrapment and as a result, the number of fatalities could be much 
higher than reported.
    2. Solution: Many factors have contributed to the decrease in the 
childhood drowning rate, including water safety public education 
efforts, the passage of critical pool/spa and boating safety laws and 
the decreased use of alcohol in and around water. Advances in emergency 
medical services and increased training of the public in 
cardiopulmonary resuscitation (CPR) for drowning incidents also have 
likely contributed to the downward trend.

    a. Education: Despite successes in reducing the death rate from 
drowning, there is still much that can be done to protect children. 
Nearly 9 out of 10 fatal drowning events occur during a brief lapse in 
supervision. Most children who drown in swimming pools were last seen 
in the home, had been missing from sight for less than 5 minutes and 
were in the care of one or both parents at the time of the drowning. 
Very young children can drown when they wander outside and fall into 
their own or other's backyard pools. These research results emphasize 
the need for pool fencing, swimming lessons for children, and active 
supervision by parents and caregivers. The installation and proper use 
of four-sided fencing could prevent 50 to 90 percent of residential 
swimming pool drownings and near drownings of children.
    A specific type of pool/spa drowning known as entrapment cannot be 
prevented with supervision as the force of the drain's suction is too 
strong for many adults to remove a child. Entrapments can be prevented 
by using proper devices, such as anti-entrapment drain covers, a safety 
vacuum release system, and a multiple drain or no-drain system.
    For children ages 10 to 14, recreational or open water settings 
(such as lakes, rivers, or the ocean) pose a higher risk representing 
the majority of drownings for this age group. From 1999 to 2003, it is 
estimated that 85 percent of boating-related drownings could have been 
prevented if the victim had been wearing a life jacket, however a Safe 
Kids 2007 Parent Survey showed that only 76 percent of parents 
consistently have their child wear a life jacket when they are in or 
near a lake, river or ocean. These statistics emphasize the need for 
educating parents and caregivers on the importance of consistent use of 
life jackets when children are boating or playing in or near open 
bodies of water.
    Life jacket loaner stations are an effective way for communities to 
provide education and safety devices to parents and children. The 
stations consist of life-jacket loaner boards from which families can 
borrow a life jacket for their child before heading out on the open 
water. In Alaska, 75 percent of children under 18 used life jackets at 
loaner sites compared to 50 percent at non-loaner sites and have 
reported 12 lives saved.
    b. Enactment and Enforcement: There have been laws passed in many 
States to protect children from unintentional drowning. Ten States have 
safety laws requiring fencing around residential swimming pools and 
many local jurisdictions also have fencing or barrier ordinances. Five 
States have laws designed to prevent entrapment-related incidents for 
residential swimming pools. These generally consist of requiring anti-
entrapment safeguards, such as the installation of drain covers or 
multiple drains. The Virginia Graeme Baker Pool and Spa Safety Act, a 
Federal law passed in December 2007, provides an incentive for States 
to pass comprehensive laws requiring safeguards for pools and spas, 
such as barriers/fences and anti-
entrapment devices. The law also requires the establishment of a safety 
standard for anti-entrapment drain covers; public pools and spas to be 
equipped with anti-entrapment drain covers and other layers of 
protection, such as safety vacuum release systems; and a Federal 
Government-implemented national drowning prevention education program.
    Forty-seven States and the District of Columbia have enacted 
boating safety laws that require children to wear life jackets while 
participating in recreational boating and in 2002, the U.S. Coast Guard 
issued a rule requiring children under 13 wear life jackets while 
aboard recreational vessels in Coast Guard waters.
                   iv. safe kids usa's call to action
    Despite the reduction in the child injury death rate, more work 
still needs to be done in order to address the leading killer of 
children ages 1-14 in this country. Safe Kids USA is calling on 
national and State governmental leaders to recognize that accidental 
injury is the #1 threat to the Nation's children, and in response, to 
marshal a multi-faceted effort (similar to what the Nation has done to 
address drunk driving and smoking cessation) to eliminate this serious 
public health threat.
A. Federal Efforts Needed
    Specifically, Safe Kids is urging the Federal Government to 
implement a number of steps to keep kids safe:

    1. Congress and the President should continue and increase efforts 
to modernize the operations and facilities of the U.S. Consumer Product 
Safety Commission (CPSC) so that it can better fulfill its critical 
mission of protecting consumers, especially children, from dangerous 
products. This includes swift passage and enactment of the CPSC's 
pending reauthorization legislation (H.R. 4040/S. 2663).
    2. Congress and the President should target increased funding to 
the several Federal agency programs charged with promoting and 
improving child safety. These include programs housed at agencies, such 
as the National Highway Traffic Safety Administration (NHTSA), the 
United States Fire Administration (USFA) and the National Center for 
Injury Prevention and Control (NCIPC) at the Centers for Disease 
Control (CDC).
    3. Congress should continue its aggressive oversight of the Federal 
agencies charged with protecting children from unintentional injury to 
ensure each agency is properly meeting its mission.
    4. Congress and the President should support full funding to the 
programs recently authorized by the Virginia Graeme Baker Pool and Spa 
Safety Act (P.L. 110-140). This would allow the CPSC to properly and 
fully implement the State law advocacy grant program that is designed 
to motivate States to pass or improve pool and spa safety laws by 
requiring ``layers of protection'' that prevent drowning and 
entrapments (i.e., four-sided isolation fencing, anti-entrapment drain 
covers, safety vacuum release systems, among other safety devices). 
Congress and the President should also provide the necessary funds to 
implement the critical pool and spa safety education program required 
by the law.
    5. Congress and the President should fully fund, and Federal 
agencies should continue to support, incentive grants programs that are 
designed to encourage States to pass child safety laws, such as primary 
safety belt enforcement, booster seat and pool/spa safety legislation.
    6. Congress and the President should, through existing programs and 
the creation of new authorities, ensure that life-saving child safety 
devices (car seats, carbon monoxide detectors, smoke alarms, pool/spa 
anti-entrapment drain covers, for example) are available at no cost (or 
low cost) to disadvantaged families that could not otherwise afford 
them.
    7. Congress, Federal agencies and injury prevention stakeholders 
should work together to improve consumer product recall effectiveness 
so that dangerous products are quickly removed from retail store 
shelves, homes, day care centers and re-sale shops.
    8. The U.S. Surgeon General, America's chief health educator, 
should focus the Nation's attention on childhood accidental injury by 
issuing an official public health report on unintentional injuries and 
deaths and how, collectively, we can prevent them. This report should 
be a catalyst to generate a major public health initiative in the 
Office of the U.S. Surgeon General.
B. State Efforts Needed
    Safe Kids also believes that there is a role for State government 
officials to promote proper child safety practices:

    1. Safe Kids calls on State legislatures and governors to enact:

    a. Laws that require all children to be appropriately buckled in a 
child safety seat (infant seat, forward facing child safety seat or 
booster seat) or seat belt in the back seat of motor vehicles; and
    b. Laws that make it unlawful to leave a child unattended in a 
motor vehicle even for a short period of time.
    2. State legislatures should address bike crashes by passing or 
improving child helmet use laws in all 50 States for all wheeled 
activities (i.e., bicycles, scooters, skateboards and in-line skates).
    3. State legislatures should address carbon monoxide poisoning by 
passing carbon monoxide detector use laws in all 50 States that require 
detectors in all residences, day care centers, hotels/motels and 
schools.

    *Please note that the penalties for violations of these safety 
device use laws (items 1-3) should be high enough to provide an 
economic disincentive for non-compliance.

    4. State governors and legislatures should ensure that their 
respective State public health agencies have adequate funding streams 
to support the country's injury prevention departments. For the last 
several years, funding has been reduced for State agencies to address 
unintentional injury prevention. An adequately funded State public 
health agency is the cornerstone of a State government's commitment to 
preventing accidental childhood injury.
                             v. conclusion
    As childhood unintentional injuries and deaths still exist and can 
be prevented, parents, caregivers, State and Federal policymakers, and 
communities must make children's safety a priority. Safe Kids commends 
Chairman Kennedy and Ranking Member Enzi, along with the other members 
of this committee, for their support of child safety and safer 
environments for children. We look forward to working with this 
committee on any efforts designed to protect children from accidental 
injury and death.

    Senator Dodd. Terrific. Great work. Good.
    Justin, welcome.

 STATEMENT OF JUSTIN BRUNS, STUDENT, THE BOYS LATIN SCHOOL OF 
                    MARYLAND, BALTIMORE, MD

    Mr. Bruns. Good morning. My story starts, I was in 
Breckenridge with our friends the Mulroys. Shawn and I woke up 
early one morning, and we went to go get our lift tickets for 
the day. It was a beautiful day, and everything was going 
great. We were doing the terrain park all day, no problem.
    So our last run of the day, we decided that we wanted my 
dad to film us so we could put it on YouTube or something. So 
we were all tired, and it probably wasn't a good idea to do one 
more run.
    We did the first two rails fine, and the last rail was the 
kinked rail, which is one of the toughest rails there. When 
you're going up to a kinked rail, you have to be leaning 
forward, and I was leaning back, and the board slipped out from 
under me, and I nailed my head on the packed snow.
    I got knocked unconscious and woke up a few minutes later 
with all of the people around me, not really sure what was 
going on. They took me to the hospital, and they found trace 
blood in the left side of my brain. I was in the hospital for 3 
days, not really feeling any pain because I was on morphine and 
all of these painkillers, luckily.
    But when I got out, all I could have was Tylenol, and I had 
headaches for at least 2\1/2\ weeks after, and it was probably 
the worst couple weeks of my life. The pain was crazy, and in 
school, I only could go 2 to 4 hours a day because the doctor 
said the more you concentrate, the worse you can make the 
injury.
    So that was hard catching up. But the teachers, luckily, I 
have a good relationship with them, and they made it really 
easy for me to get back. My grades didn't drop too much. So 
that was good.
    Excuse me, I was out of sports for 8 weeks and anything 
active. I am an athlete, and I like to go full all the time. So 
it was hard to stop doing that for 8 weeks.
    Luckily, I am back now, and I haven't had a headache or 
anything in at least 5 weeks, or any symptoms. So I am happy I 
was wearing a helmet because it saved my life.
    [The prepared statement of Mr. Bruns follows:]
                   Prepared Statement of Justin Bruns
    Good Morning, my name is Justin Bruns. I am an eighth grader from 
Baltimore, MD. I want to thank Chairman Kennedy, Senator Enzi and other 
distinguished members of the HELP Committee for inviting me to testify 
about this important topic and tell my story of how a helmet saved my 
life in a snowboarding accident.
    This past winter my family and I went to Colorado for President's 
Day weekend. We went to visit friends and family and go skiing/
snowboarding. On Saturday, February 16, I got up early to go 
snowboarding with my friend Shawn. We were having a great day and the 
runs were amazing. As the end of the day neared we decided to film 
ourselves while boarding in the terrain park. My dad came along and 
offered to film the two of us. It was to be the last run of the day on 
probably the toughest rail of the day. It was a kinked downhill rail 
and it was very long. It was a little intimidating and I was a little 
freaked out. I guess I wasn't leaning forward enough and the board 
slipped out from under me and I nailed my head on the snow.
    I don't remember the fall or going up the rail for that matter. A 
few minutes later I came to and I was on a backboard with a neckbrace 
on being taken down the mountain by ski patrol. They took me to the 
local Medic Center. They did a CT scan and found traces of blood. The 
doctors decided I needed to go to the hospital in Denver--St. 
Anthony's. I was admitted to the Trauma unit. I had to stay in the unit 
for 3 days and 2 nights. I was happy when I finally got released Monday 
afternoon.
    I went back to Baltimore the next day--Tuesday. My parents were 
really worried about how I was doing/feeling. I had headaches and was 
tired for the next couple of weeks. I was only allowed to take Tylenol 
to relieve the pain. My parents told my teachers about my accident. 
School was helpful and accommodating about how I was feeling. I had 
trouble with reading and taking notes. Doing both of these almost 
always gave me a headache in the first couple of weeks after the 
concussion.
    I had to see a couple of doctors over the next 4-5 weeks. I had to 
stay out of all sports until my doctor in Baltimore said it was okay to 
play sports. After 7\1/2\ weeks I was finally told it was okay to play 
lacrosse. This was the worst time of my life but I am sure glad I had 
my helmet on. I can't imagine what things would be like for me if I 
hadn't.

    Senator Dodd. Terrific. Well, that is great. Thank you very 
much.
    The Chairman. What do you think would have happened to you 
if you weren't wearing your helmet?
    Mr. Bruns. I probably wouldn't be the same person, or the 
doctor said I could have died.
    The Chairman. Have you always worn your helmet?
    Mr. Bruns. I have. My parents are ``helmet Nazis.''
    [Laughter.]
    Senator Dodd. Clean up that record here.
    [Laughter.]
    The Chairman. Good for them, I guess. OK, thanks.
    Do most of your friends wear helmets?
    Mr. Bruns. No. Only one of them, who I just met like this 
school year. But besides that, none of my other friends wear 
them.
    The Chairman. What do they say? It is not cool, or what do 
they----
    Mr. Bruns. They don't really say anything to me, but I just 
don't like wearing one, I guess. I feel kind of weird wearing 
one. But now I do because I know what can happen.
    The Chairman. Do you feel now, do you ever suggest to any 
of these other kids that they might think about it, too?
    Mr. Bruns. I don't want to nag them about it, but I told 
them what happened, and I think they are a little more afraid.
    The Chairman. There you go. That is a nice way of doing it, 
too. You get the example that you set, and they see that you 
are having a good time and a safe time. It may make a 
difference to them. It certainly does.
    We have your mom here.
    Mr. Bruns. Yes.
    The Chairman. We want to thank you. You wrote a statement 
as well, and we are going to put that in the record. It is a 
wonderful, wonderful statement. Very, very appreciative of 
spelling this out. It was very powerful and very moving, and we 
are very, very grateful. It will be very helpful to the people.
    [The prepared statement of Ms. Bruns follows:]
          Statement of Kathleen Bruns, Mother of Justin Bruns
    On February 16 of this year my husband and I experienced a 
situation I hope very few parents ever go through. Our 14-year-old son, 
Justin, had a snowboarding accident while boarding with his father and 
his friend Shawn. Justin took a hard spill off of a rail in a terrain 
park while boarding in Breckenridge, CO. Bob and I are adamant about 
helmet use and thankfully for Justin, he had his on.
    Justin suffered a stage 3 concussion. This means he was knocked 
unconscious and had some memory loss. In Justin's case it was about 3-5 
minutes. This stage is the highest degree of severity. As a result of 
this injury Justin had to spend 2 nights in the hospital, the first 
being spent in the trauma unit. The hospital performed CT scans that 
showed blood, which is one of the reasons they wanted to keep him for 2 
nights. The speech pathologist also gave Justin a cognitive test to 
test his brain function. The first time he took this test he missed 
passing by just a few points. The hospital decided to follow up with a 
second test Monday morning, which Justin passed. An MRI was also done 
Monday. Dr. Nichols, the Neurological Surgeon informed us it was clear 
and Justin was discharged in the early afternoon.
    Justin was told he would have headaches for some time and that he 
should take it easy. He had to be honest with how he was feeling since 
there were no clear outward signs of injury. Doctors had told him, if 
you had broken a bone everyone would immediately know because you would 
have a cast. In his case there was no outward sign to let others know 
what had happened.
    We contacted Justin's teachers at school to let them know what had 
happened. We made it clear to them the symptoms that would be troubling 
Justin. The biggest indicator in his recovery was going to be how he 
was doing cognitively. Was he able to read, study, complete homework 
and class assignments and take tests. The first couple of weeks after 
the concussion Justin only went to school for about 4\1/2\ hrs because 
he tired very easily and developed regular headaches. He was given some 
leeway by teachers, who allowed him to skip on some of the class work. 
Within about 3 weeks after the concussion Justin was reporting that he 
was headache free. By the end of the third week Justin was able to 
start exerting some energy on the elliptical at home for 15-20 minutes. 
Dr. Andy Tucker, our doctor in Baltimore, allowed Justin to slowly 
increase his workouts over the next 3 weeks. On the school/cognitive 
front, by the 6th week after the accident Justin was finally caught up 
on all assignments and tests.
    During the time, immediately after the head trauma, Justin was not 
allowed to participate in any physical activities. He was not even 
allowed to be in the same vicinity as kids who were playing catch with 
a football, playing basketball, or roughhousing in any way. He was not 
allowed to risk having any kind of trauma to his head, so soon after 
the accident, or it could have very disastrous repercussions to the 
level of his brain function. As a member of 2 lacrosse teams he was not 
even to be near the field to watch his teams practice for fear of an 
errant ball coming his way and hitting him in the head.
    It took 7\1/2\ weeks for Justin to be cleared for full contact 
physical activity. This seemed like much longer to all of us and was 
very difficult to get through. Justin will continue with the activities 
he has always done, but with a greater understanding of how a $70 
helmet kept him ``the Justin we know and love.'' His helmet truly saved 
his life!

    The Chairman. OK. Meri-K, please.

   STATEMENT OF MERI-K APPY, PRESIDENT, HOME SAFETY COUNCIL, 
                         WASHINGTON, DC

    Ms. Appy. Good morning. I feel very fortunate. I grew up in 
Connecticut. My children were born and raised in Massachusetts.
    The Chairman. There you go.
    Ms. Appy. Henry will graduate from U-Mass next month. My 
dear oldest brother lives in Georgia. So, I feel--How do you 
like that, Alan?
    [Laughter.]
    Thank you so much for letting me be here today, and 
congratulations to Safe Kids for their 20 years of service to 
our shared purpose.
    I am Meri-K Appy, President of the nonprofit Home Safety 
Council. HSC's mission is to prevent accidental injuries in and 
around the home. This is a serious public health problem, 
resulting in nearly 20,000 deaths and more than 21 million 
medical visits in America every year.
    Far too many of these tragic events involve children, and 
we believe, as does Safe Kids, almost all of them could be 
prevented. Our dream is to help kids learn safety lessons today 
so they grow up being safer parents and caregivers in the 
future.
    We make safety fun, hands on, and high impact. For example, 
our Great Safety Adventure, or GSA, is an incredible field trip 
on wheels. We have two 1,000-square foot vehicles that travel 
across America, visiting schools and communities free of charge 
at events throughout the year. More than 1 million kids, family 
members, and teachers have experienced GSA with proven results.
    Our Safety Ranger Classroom program--Senator Isakson, I 
loved what you said earlier--developed through a partnership 
with Weekly Reader, have reached more than 75 million teachers, 
students, and family members. Our method is to engage teachers, 
local safety experts, and parents to help children develop 
positive safety habits.
    CodeRedRover.org is the Home Safety Council's educational 
Web site for kids, and it was recognized by USA Today as an 
Education Best Bet Award winner.
    The Home Safety Council loves teaching children about 
safety. But when you think about it, family safety is really an 
adult responsibility. Unfortunately, many parents and 
caregivers are missing this message. HSC is convinced that part 
of the problem lies in how we have all been communicating that 
message.
    Here is a shocking statistic I would like to share with 
you. More than 93 million adults in America read at or below 
basic levels. This has huge implications when we think about 
educating the caregivers about how to take care of their 
children.
    The Home Safety Council and our partner, Pro Literacy 
Worldwide, has launched an award-winning home safety literacy 
project in 2005. It teams up local literacy tutors and teachers 
with firefighters and other safety experts. They use our 
specially designed materials to teach basic safety lessons and 
even install devices such as smoke alarms as the adults are 
learning to read in English. So it is taking care of two huge 
societal issues at the same time.
    I would like to thank you so much. We were thrilled to be 
included in this August lineup this morning. We are thrilled to 
be contributing to the safety of our children, particularly in 
the place we all would like them to be safest--their homes.
    [The prepared statement of Ms. Appy follows:]
                   Prepared Statement of Meri-K Appy
    Chairman Kennedy, Ranking Member Enzi, and members of the 
committee, I very much appreciate the opportunity to share my comments 
on keeping children safe by preventing childhood injuries. I am Meri-K 
Appy, president of the Home Safety Council.
    Good morning and congratulations to SAFE KIDS for their 20 years of 
service to the safety of our Nation's children.
    The Home Safety Council's mission is to prevent accidents in and 
around the home. This is a serious problem, resulting in nearly 20,000 
deaths and 21 million medical visits on average each year in America. 
Far too many of these tragic events involve children, and most can be 
prevented.
    Our dream is to help kids learn injury prevention lessons early in 
life so they can grow into a future generation of safer adults and 
caregivers. We make safety fun, hands-on, and high-impact. For example:
    Our Great Safety Adventure (GSA) is an incredible ``safety field 
trip on wheels.'' Two 1,000-square foot traveling exhibits visit 
schools and community events across America. More than 1 million kids 
and family members have toured GSA since the tour began in 1999, with 
proven success.
    HSC's ``Safety Ranger'' classroom programs, developed through a 
partnership with Weekly Reader, have reached more than 75 million 
teachers, students, and family members with documented results. We 
engage teachers, local safety partners, and parents to help children 
develop positive safety habits that will last a lifetime.
    CodeRedRover.org, the Home Safety Council's Web site for children, 
is an interactive, educational site offering games, activities, home 
safety checklists, and tips for children and the adults who care for 
them. The site was recognized by USA Today as an ``Education Best Bet'' 
award winner.
    The Home Safety Council loves teaching children about safety. But 
it's really the responsibility of adults to create a safe environment 
for our kids. HSC learned something that frankly shocked us: more than 
93 million adults in America read at or below basic levels.
    So HSC and our partner, ProLiteracy Worldwide, launched the Home 
Safety Literacy Project. This program teams local literacy tutors and 
teachers with firefighters and emergency managers who use our 
specially-designed educational materials to teach basic safety lessons 
and even install free smoke alarms.
    These are just a few of the programs of the Home Safety Council 
we've implemented to help prevent injuries to our children.
    Thank you for inviting me to be here today. On behalf of the Home 
Safety Council, here's to another 20 years of progress for SAFE KIDS 
and all of us in the injury prevention world. &

    The Chairman. Great.
    Ms. Williams.

 STATEMENT OF AMBER N. WILLIAMS, EXECUTIVE DIRECTOR, STATE AND 
      TERRITORIAL INJURY PREVENTION DIRECTORS, ATLANTA, GA

    Ms. Williams. Thank you, Mr. Chairman, for the opportunity 
to be here today.
    My name is Amber Williams, and I am the Executive Director 
of the State and Territorial Injury Prevention Directors 
Association, which is also known as STIPDA. We are based out of 
Atlanta, but we represent State public health injury and 
violence prevention programs across the United States.
    We are also pleased to celebrate with our colleagues and 
partners the tremendous advances that have been made in 
preventing unintentional injuries to children, or what are 
commonly referred to as accidents. And I am pleased to tell you 
about the role that State health departments have played in 
those reductions.
    They have, first, helped us to truly understand what has 
been going on, how children have been injured, who is at risk 
for certain injury types, and have been involved in developing 
effective interventions and disseminating those widely to those 
at the local level.
    One example of State leadership in this area has been in 
preventing residential fire-related injuries and deaths. In the 
State of Oklahoma, the injury prevention program identified an 
area that had a much higher than average rate of fire-related 
injury death. They went in, did a smoke alarm distribution 
program and educated the residents and, following that, saw an 
81 percent decrease in the rate of residential injury and fire-
related death.
    That is incredible. At the same time in Oklahoma, there was 
only a 7 percent decline.
    The Chairman. Can you give that to me again? I missed the 
significance.
    Ms. Williams. They saw an 81 percent decline in residential 
injury/fire-related deaths, while in the rest of Oklahoma there 
was only a 7 percent decline.
    The Chairman. What is that, why--what is that attributed 
to?
    Ms. Williams. They distributed and installed smoke alarms.
    The Chairman. Smoke alarms, good.
    Ms. Williams. This program has since been replicated across 
the United States with support from the Centers for Disease 
Control, and we have had similar successes, and the program has 
been credited with saving 1,500 lives. We have seen similar 
progress, obviously, in the areas of child passenger safety and 
bicycle safety.
    Today, our economy is uncertain. We are facing growing 
healthcare rates--healthcare crisis, and the cost of injuries 
are one of the top 10 most expensive medical conditions, along 
with cancer and heart disease. But injuries are predictable, 
they are preventable, and our prevention efforts are cost-
effective. Most of all, children deserve our help in keeping 
them safe.
    So I thank you again for the opportunity to be here, and I 
look forward to any questions you may have.
    [The prepared statement of Ms. Williams follows:]
                Prepared Statement of Amber N. Williams
                                summary
    Thank you, Mr. Chairman, for the opportunity to participate in this 
hearing on childhood injury prevention along with our colleagues and 
partners at the National Center for Injury Prevention and Control at 
the Centers for Disease Control and Prevention, Safe Kids Worldwide, 
and the Home Safety Council. My name is Amber Williams and I am the 
Executive Director of the State and Territorial Injury Prevention 
Directors Association, also known as STIPDA. STIPDA is the only 
membership association representing State public health injury and 
violence prevention programs and has more than 300 members who are 
professionals working at the State, territorial and local levels to 
prevent injuries and violence. During this hearing, I will share 
examples of how State public health departments have contributed to the 
declines we have seen in deaths due to unintentional injuries among 
America's children, as well as offer our perspective on future 
opportunities to keep our children safe.
    If those of us working in the field of injury and violence 
prevention had been asked to share our progress regarding childhood 
injury prevention 20 years ago, we would have only been able to tell 
you that we know children were dying unnecessarily in car crashes, 
falling off bikes, in residential fires and other unintentional or 
``accidental'' ways. At the time, however, we didn't understand enough 
about the problem. Fortunately, today my colleagues and I can sit 
before you and share the tremendous progress we have made collectively 
in reducing deaths related to unintentional childhood injuries. This 
progress is partly through the efforts of State health departments 
which have helped us better understand how children are being injured, 
what children are at greatest risk for injuries, what interventions are 
best to prevent these injuries, and ensure the widespread adoption of 
these interventions. State health departments have also been strong 
allies of Safe Kids coalitions, and often serve as the lead agency for 
State coalitions. Through these relationships, State health departments 
provide data, technical assistance, training, and often financial and 
in-kind support.
    Today I would like to share with you some of the specific ways 
State injury and violence prevention programs are preventing 
unintentional childhood injuries. The Georgia State Injury and Violence 
Prevention Program has been able to document at least 56 lives 
potentially saved since 2006 through a child safety seat distribution 
program and unique partnership with the Emergency Medical Services 
(EMS). The New York Injury and Violence Prevention Program was able to 
document reductions in bicycle-related injuries and traumatic brain 
injuries following the implementation of a statewide comprehensive 
bicycle helmet program that culminated in a bicycle helmet law passing 
easily through the State legislature. Finally, the Oklahoma Injury 
Prevention Service was able to identify a high-risk area in Oklahoma 
City for house-related fire injuries. In response, they conducted a 
smoke alarm distribution program. After the program, Oklahoma saw an 81 
percent decline in residential fire injury-related deaths in the target 
population while rates declined only 7 percent in the rest of Oklahoma 
during the same time period.
    As we look to the future, we see that so many childhood health 
issues are interrelated and that really what truly is needed is an 
investment in healthy communities. In healthy communities, children can 
walk to school without fear of being hit by a car, or becoming the 
target of bullies or other violence; they have access to safe equipment 
that will allow them to participate in sports and other recreational 
activities while being protected from a variety of injuries, including 
head and brain injuries. We need to expand our focus to building 
communities where American families can live active, safe and healthy 
lives.
                              about stipda
    Good morning Mr. Chairman, Senator Enzi, and other distinguished 
members of the committee. It is my pleasure to appear before you as the 
Executive Director of the State and Territorial Injury Prevention 
Directors Association (STIPDA). We appreciate the opportunity to 
participate in this hearing and to share the stories of the success 
we've seen in preventing unintentional injuries and deaths among 
America's children from the perspective of State public health injury 
and violence prevention programs. Formed in 1992, STIPDA is the only 
organization that represents public health injury prevention 
professionals in the United States and has a membership of more than 
300 professionals committed to strengthening the ability of State, 
territorial and local health departments to reduce death and disability 
associated with injuries and violence. To accomplish this, STIPDA 
engages in activities to increase awareness of injury, including 
violence, as a public health problem; provides training and technical 
assistance; supports policies designed to advance injury and violence 
prevention; and works to enhance the capacity of public health agencies 
to conduct injuries and violence.
the role of state public health injury and violence prevention programs 
        in reducing childhood unintentional injuries and deaths
    State governments have a responsibility to protect the public's 
health and safety. A comprehensive injury and violence prevention 
program at the State health department provides focus and direction, 
coordinates and finds common ground among the many prevention partners, 
and makes the best use of limited injury and violence prevention 
resources. State public health injury and violence prevention programs 
apply the public health approach to help understand, predict and 
prevent injuries and use a population-based approach to extend the 
benefits of prevention beyond individuals.
    State injury and violence prevention programs use surveillance data 
to determine how injuries occur, who is most at risk, and what other 
factors contribute to whether or not an individual will be injured and 
to what degree. We have also come a long way in our understanding of 
how to prevent injuries and look beyond just the personal behaviors 
that lead to an injury to also investigate to the products that people 
use, the physical and social environment, and the organizational and 
governmental policies that affect the safety of our environments.
    State programs have also contributed to the dissemination of 
effective practices through partnerships with injury control research 
centers, local health departments, local coalitions and other 
organizations. State programs provide training and technical assistance 
to local injury prevention efforts every day.
    Although we have seen successes in many areas of childhood 
unintentional injury prevention, three areas that stand out include 
improvements in child passenger safety, bike and wheeled sports injury 
prevention, and residential fire-related injury prevention.
                         child passenger safety
    When you get into your car, do you automatically secure your 
children (or grandchildren) in car seats before buckling up yourself ? 
Chances are, like most Americans, you do. However, just a few short 
decades ago this wasn't the case. Today it is more the exception than 
the rule for Americans not to buckle up--or to not use car seats for 
their children. In fact, when a celebrity recently drove with her 
infant in her lap, the public was outraged. Motor vehicle crashes are 
the leading cause of death for children and by putting a child in an 
appropriate restraint--whether it's a car seat turned to the rear of 
the vehicle for an infant or a belt-positioning booster seat for a 
young child--you can reduce serious and fatal injuries by more than 
half. However, there is still work that must be done to ensure everyone 
is restrained properly for every ride in the car and that car seats and 
boosters seats are used correctly.
    It's evident that collectively, we have made incredible strides in 
reducing the number of children who die or are injured in car crashes 
by increasing the number of children who are restrained properly in car 
seats until they are able to properly fit in a car's seat belt. In fact 
deaths have decreased 32 percent during the last two decades. This 
success have been achieved using a number of strategies including: by 
strengthening laws that require children to be properly restrained and 
enforcing those laws, training child passenger safety technicians to 
work with parents and help them to use car seats properly, distributing 
car seats to low-income families, and increasing awareness of the need 
for car seats. We have changed the ``norm'' for riding in cars so that 
today there is an outcry when anyone is found driving with infants in 
their laps or turning their child's car seat to face the front of the 
car before the child's first birthday.
    State injury and violence prevention programs are often involved in 
efforts to raise awareness, distribute car seats, conduct car seat 
checkpoints, and strengthen organizational policies:

    <bullet> Over the last several years, the Georgia Injury and 
Violence Prevention Program has conducted a car seat distribution 
program to low-income families in 109 of the 159 counties in Georgia in 
partnership with local health departments, Safe Kids coalitions, and 
other organizations. Each seat distributed through the program has a 
teddy bear sticker that EMS personnel look for on the scene of car 
crashes. The State health department has documented at least 56 
potential lives saved through this program so far between 2006 and 
March 2008.
    <bullet> In New York State, the Bureau of Injury Prevention 
conducted a program called ``Gimme a Boost'' in three counties to 
determine the barriers to booster seat use and how to best increase use 
among 4-8 year olds. Through interviews with parents and guardians of 
4-8 year olds, the Bureau was able to determine that reasons for non-
use included: New York State law does not require use by 4-8 year olds, 
the belief that their child was too big or old for a booster seat, lack 
of knowledge about the need for booster seats and the injury risks 
associated with only using safety belts, and child resistance to using 
a booster seat. Booster seat distribution, public awareness campaigns, 
and school-based programs were implemented in the three counties to 
determine which combination(s) might be associated with increase 
booster seat use. Comparison to a control county that received none of 
the interventions found that the combination of all three interventions 
led to the largest increase in booster seat use from 21 percent to 53 
percent. Using this information, as well as injury hospitalization and 
death data, communities educated their policymakers in support of 
legislation requiring the use of booster seats for children 4-6 years 
of age. The booster seat law was enacted in 2005.
    <bullet> The Michigan Injury Prevention Program was able to 
identify that because the child passenger safety law did not include 
older children, parents were not using booster seats. Through a 
targeted educational effort, the Michigan Injury Prevention Program was 
able to demonstrate an increase in booster seat usage by 300 percent. 
These efforts and many others have translated into the support needed 
to strengthen the child passenger safety law to include older children 
and was signed by the Governor just this year. In fact, there are four 
new booster seat laws this year--bringing the total to 43 States--which 
now protect older children in some form through child passenger safety 
laws.
    <bullet> The Utah Department of Health conducted a statewide 
program to increase booster seat usage among children ages 4-8 years 
from 2002-2005. Through partnerships with local health districts, the 
Utah Department of Health conducted awareness and media activities, 
distributed more than 2,000 child safety seats, conducted more than 120 
car seat checkpoints to ensure families were using car seats correctly, 
and implemented booster seat policies in pre-schools and daycare 
centers. As a result, an estimated 44 Utahans are alive today and the 
death rate decreased 6 percent from 2002 to 2004 while booster seat 
usage increased by 10 percent from 2002-2005. Every $1 spent on child 
safety seats saves $41. In 2005, distributing 2,000 child safety seats 
in Utah saved approximately $3.3 million.
    <bullet> In Colorado, the Injury and Violence Prevention Program 
conducted a booster seat program between 2001 and 2004. During this 
program, booster seat use by children ages 4-8 increased significantly 
in Colorado from 2001-2004. In 2001, adults reported that 86 percent of 
the 4- to 8-year-olds in their household always used a restraint while 
riding in a vehicle. Of those who always used a restraint, 15 percent 
used a booster seat. In 2004, the percentage of children who always 
used a restraint remained high at 89 percent, but booster seat use 
increased to 45 percent.

    Today, motor vehicle crashes remain the leading cause of injury 
death for children, but the collective efforts of those working has 
lead to a 32 percent decrease in this rate over the last two decades. 
Future efforts should continue to focus on older children ages 4-8 who 
are still not ready for a vehicle's lap and shoulder belt as well as 
effort to ensure all States have laws that appropriately protect our 
youngest riders.
                    bicycle and other wheeled sports
    Bicycling and participating in other wheeled sports, such as 
skateboarding, riding scooters and in-line skating, are excellent ways 
to increase physical activity and combat obesity and other chronic 
health conditions. Although these activities provide healthy exercise, 
they are not without risk of injury, with head injuries accounting for 
60 percent of bicycle-related deaths and more than two-thirds of 
bicycle-related hospital admissions. Extensive research has shown that 
use of helmets can reduce the risk of head and brain injury by 70 
percent to 88 percent. Survivors of head injuries can have severe 
physical, emotional or cognitive problems that result in a long-term 
disabilities including difficulties with learning and activities of 
daily living.
    Universal use of bicycle helmets by children ages 4 to 15 could 
prevent between 135 and 155 deaths, between 39,000 and 45,000 head 
injuries, and between 18,000 and 55,000 scalp and face injuries 
annually. If 85 percent of all child cyclists wore helmets every time 
they rode bikes for 1 year, the lifetime medical cost savings could 
total between $134 million and $174 million.
    Over the last two decades, deaths have declined from 389 deaths to 
132 deaths in 2004. State injury and violence prevention programs have 
contributed to the reduction in these injuries and deaths by providing 
data to partners, raising awareness, distributing bicycle helmets and 
supporting efforts to require the use of bicycle helmets by law. Today 
21 States, the District of Columbia and over 140 localities have 
enacted some form of mandatory child bicycle helmet legislation. 
Efforts of State injury and violence prevention programs have included:

    <bullet> From 1991-1995, the New York State Injury Prevention 
Program conducted a statewide multifaceted bicycle helmet safety 
program featuring a Teenage Mutant Ninja Turtle character. The program 
included a public service campaign, prescription pads for New York 
State pediatricians and family practice physicians to prescribe helmet 
use for children seen in the practice, and the development of 77 
community-based programs. Community coalitions distributed more than 
30,000 bicycle helmets to children from families and need. With so much 
public attention and support, in 1994, State legislation was enacted 
requiring all bicyclists under the age of 14 to wear a bicycle helmet. 
School-based and observational surveys documented an increase in helmet 
ownership and usage between 1989 and 1993, and the New York State 
injury and violence prevention program has found a steady decline in 
bicycle-related deaths since the implementation of the program.
    <bullet> The Louisiana Injury Prevention Program has provided 
information to advocates such as Safe Kids, Think First, the Governor's 
Highway Safety Commission, and other public and professional groups. 
These advocates have used the information to educate State legislators, 
inform their constituencies, and promote appropriate injury prevention 
behaviors. These activities led to establishment of a law requiring the 
use of bicycle helmets, and re-establishing a law requiring the use of 
motorcycle helmets.
    <bullet> After learning that children ages 5-14 have the highest 
rate of bicycle-related hospitalization and 32 percent of these 
hospitalized children sustain a brain injury, the Colorado Injury and 
Violence Prevention Program implemented a bicycle helmet program. 
Survey results indicate that the percent of Colorado children ages 5-14 
who were reported as always wearing a helmet when bicycling increased 
slightly, from 40 percent in 1999 to 49 percent in 2005.
    <bullet> In California, bicycle helmet legislation, which led to an 
increase in helmet use, resulted in an 18 percent reduction in the 
proportion of traumatic brain injuries among young bicyclists.
    <bullet> The Florida Injury and Violence Prevention Program 
provided data on bicycle-related injuries comparing one county with the 
rest of the State of Florida upon request in January 2006 to the 
administrator of local health department. The administrator used the 
data to present to county commissioners, who finally opted to enforce 
the State's bike helmet law for riders under age 16--the last county in 
the State to do so.
    <bullet> From 1993-2000, the Oklahoma Injury Prevention Service 
collaborated with numerous national, State, and community partners and 
with funding provided by the National Center for Injury Prevention and 
Control, implemented bicycle helmet programs in several Oklahoma 
communities. These comprehensive, community-based efforts targeted 
children at greatest risk of bicycle-related TBIs, those 5-12 years of 
age. Mini-grants were awarded to county health departments, schools, 
police departments, civic organizations, and injury prevention 
coalitions to implement bicycle helmet distribution and education 
programs throughout the State. These bicycle helmet programs have been 
conducted in more than 90 communities and more than 100,000 bicycle 
helmets have been distributed. According to the OSDH Behavioral Risk 
Factor Surveillance System (BRFSS), from 1992 to 1998, reported bicycle 
helmet use among children increased from 6 percent to 25 percent.
                            residential fire
    Finally, we have seen a lot of progress in preventing injuries and 
deaths due to residential fires through smoke alarm distribution 
programs. Children, especially those in rural areas, are at high risk 
for injuries and deaths due to residential fires--partly due to their 
greater likelihood of starting fires as well as their greater need for 
assistance in escaping fires. It is well established that smoke alarms 
are extremely effective at preventing fire-related injuries and deaths. 
An individual's chance of dying in a residential fire is reduced by 
half when a smoke alarm is present.
    In the late eighties and early nineties, the Oklahoma Injury 
Prevention Service led the way in establishing the best practices for 
preventing fire-related injuries and deaths through an innovative smoke 
alarm distribution program that involved developing a strong 
partnership with local firefighters, identifying areas at highest risk 
for fires, canvassing these areas and installing smoke alarms outside 
sleeping areas and on each floor of high-risk homes.
    The work in Oklahoma led to the development of a residential fire 
injury prevention program through the National Center for Injury 
Prevention and Control to provide funding to State health department 
injury and violence prevention programs to conduct smoke alarm 
distribution and installation programs. Through this funding, State 
health departments, in partnership with local firefighters, have been 
able to reach 185,000 high risk families, install more than 348,000 
smoke alarms and potentially save more than 1,500 lives. Overall, 
deaths related to fires and burns have decreased nearly 60 percent over 
the last 20 years.
    State successes have included:

    <bullet> In Washington State, firefighters installed a smoke alarm 
in the mobile home of a Shoreline mother and her 3-year-old son. Weeks 
later the alarm woke the mother, who found a portion of her home 
ablaze. She woke her sleeping child and escaped before the home became 
fully engulfed. She was treated for smoke inhalation and released; her 
son was unharmed.
    <bullet> In Georgia, firefighters visited a home in Moultrie, 
installed smoke alarms in the proper places, and educated the family 
about a fire escape plan. When wires shorted and ignited the old wood 
home, a teenage boy awoke in the night to the alarm, alerted his mother 
and two younger siblings, and followed the fire escape plan. Although 
the fire damage was extensive, no injuries occurred.
    <bullet> Between 1998 and 2006 in New York, the Bureau of Injury 
Prevention canvassed approximately 39,732 homes in communities across 
New York State, installed more than 21,000 smoke alarms, and documented 
379 lives saved in 165 fire and severe smoke incidents.
                      opportunities for the future
    We must continue to invest in the prevention efforts that have 
demonstrated so much success over the last 20 years, such as child 
passenger safety, residential fire injury prevention, and bicycling and 
other wheeled sports. Additionally, State injury and violence 
prevention programs must continue to study the patterns of injuries to 
identify new injury concerns--such as the recent rise in unintentional 
poisonings/drug overdoses, as well as translate new research into 
community-based practices.
    As we learn more about what puts children at risk for injury, we 
must also consider the reality that children today are less active, 
more likely to be overweight or obese, and at increased risk for 
chronic diseases in adulthood. Yet parents are fearful of allowing 
their children to walk to and from school or to play outside due to the 
dangers of traffic and crime. America's children deserve to live in 
communities where they can be healthy and active without the fear of 
violence or ``accidental'' injury. Investments in healthy communities 
and smart growth initiatives are one of the strongest ways we can work 
together to improve the overall health and safety of America's 
children.
    We believe that with appropriate investments for continued and new 
injury prevention efforts, we will be able to see even more dramatic 
declines when we meet again to celebrate 25, 30 and 40 years of 
preventing unintentional injuries to children.

    The Chairman. Very good.
    Let me, if I could, just a few--do you have to go, Chris? 
Do you have questions?
    Senator Dodd. No, just this, and I thank all of you--I 
apologize slipping out a little early. I just can't thank you 
enough, and we will just keep working. Give us more ideas on 
how we can deal with these issues.
    Just one question, you mentioned how you--that last run, 
you wanted your father to film you on that run. Did he film you 
on that run?
    Mr. Bruns. He did, yes.
    Senator Dodd. Well, that is not a bad idea. Have you shown 
that to your pals?
    Mr. Bruns. Ah, yes. They all laughed.
    Senator Dodd. That is not a bad way maybe of convincing 
them of what can go wrong. Maybe put it on YouTube.
    Mr. Bruns. I already put a song with it. So----
    Senator Dodd. Did you? Put a song to it, too.
    This is the father here, too. I am getting him in a lot 
more trouble. You are not from Connecticut, are you?
    [Laughter.]
    Well, thank you very, very much, and I apologize again for 
leaving early. Appreciate your testimony. Thanks.
    The Chairman. Mr. Korn, let me ask you, Safe Kids attribute 
45 percent decline in the unintentional death rate for children 
over the last 20 years. Do you want to tell us, what do you 
attribute that to?
    Mr. Korn. Well, 20 years ago--I am 43 years old and rode a 
bike and never wore a bike helmet. When I used to ride in my 
father's car, I used to stand up. He had a convertible. I used 
to stand up in the center between my mother and father. There 
was no car seats.
    So the devices that you hear about today, that I brought 
with me today, have made a real difference. Twenty years ago, 
these type of things didn't exist. Or if they did, they weren't 
nearly as good as they are today. So we have seen the 
consciousness of parents raised quite remarkably. Second, they 
have had the devices that they need--smoke alarms, carbon 
monoxide detectors, personal flotation devices--to use when out 
doing their winter or summer activities.
    The other thing I will mention just real quickly. Twenty 
years ago, there was no such thing as a bicycle helmet law. 
Georgia has a bicycle helmet law now. So does Massachusetts. 
Twenty years ago, there was no such thing as a State child 
safety seat law. Massachusetts, I think it was April 11th, just 
improved their child restraint law to include booster seats. 
Georgia has had one for a while.
    Twenty years ago, those didn't exist, which is a good 
motivation to get parents to not only use the devices, but use 
them as a custom pattern and practice over time.
    The Chairman. Well, what is your answer to those that would 
say we are just coddling our children on these?
    Mr. Korn. Yes. You know, Safe Kids--and I know STIPDA and 
the Home Safety Council are the same way on this. We are not 
suggesting that you need to wrap kids in bubble paper every 
time they go out. You want them out there enjoying the summer, 
swimming, biking. You are even going to fall off your bike and 
scrape your knee, a little stitch in your elbow. Those are 
badges of honor. Maybe his small concussion is a badge of 
honor, maybe.
    But we are talking about serious traumatic injuries here. 
We want the kids out there enjoying summer. So my response to 
those people is, these are the things that are preventable. 
These are the things that we know how to take charge of and 
prevent from happening in the first place. It is not preventing 
the little scratch. It is preventing the concussion that will 
kill you or the drowning that will happen when 100 parents are 
standing around a pool. A kid goes under, that is the end of 
it.
    Or a smoke alarm. When there is smoke, it rings, and you 
are out of the house. These are serious injuries, not those 
smaller injuries.
    The Chairman. Your report points out that accidental 
injuries disproportionately affect minority children. Can you 
tell us why that is the case and what suggestions you have to 
do something about it?
    Mr. Korn. I think Senator Isakson and Dodd both referenced 
to it. One of the reasons is the cost associated with these 
items. A bike helmet is now $15, down a lot over the past 10 
years. But still, when you are choosing between a gallon of 
milk, which is increasing now, and a bicycle helmet, a family--
and I, quite frankly, don't blame them--choose the gallon of 
milk.
    So it is incumbent upon groups like ours and the Federal 
Government to make sure that we are giving away free bicycle 
helmets, which we do each year, or that we are giving away free 
smoke alarms, which I know the Home Safety Council does each 
year. So these are the types of things that we need to do to 
reach those underserved populations.
    The other thing is maybe getting additional funding through 
the CDC, the U.S. Fire Administration, the National Highway 
Traffic Safety Administration, to buy these devices, to make 
sure we can give them away without charge to those families.
    The Chairman. Amber, what are the biggest barriers at the 
State and local level to implementing programs to address 
childhood injury?
    Ms. Williams. I think, first of all, it is a resource 
issue. As Ileana said at the beginning, CDC funds 30 States to 
do basic injury prevention for the entire State, and that 
figure is about--just over $100,000 for a State to do 
coordinated injury prevention.
    So when you take that and you are trying to do 
surveillance, you are trying to do interventions, you are 
trying to distribute safety products to folks, it doesn't go 
very far. So, we really have to do a lot to engage States and 
private industries to help us in getting those devices into the 
hands of the public.
    I think the other part of it is that from a State 
perspective, they are really charged with truly understanding 
what is going on because it does vary from State to State and 
from community to community. Our ability to do the surveillance 
that we need to is limited by the quality of the external cost 
coding and hospital discharge data.
    So that is another challenge, and just one further 
challenge is overall the public health workforce. There is a 
shortage of workers in the public health workforce, and I am 
sure you are familiar with that issue as well.
    So there are a number of challenges from the workforce to 
resource issues to be able to take what is known about 
preventing injuries and doing that at the State and community 
levels.
    The Chairman. OK. Senator Isakson.
    Senator Isakson. Thank you, Mr. Chairman.
    Mr. Korn, I remember in the 1970s or 1980s, when I was in 
the State legislature, we passed a mandatory helmet law for 
motorcycle operation in Georgia. There was a tremendous lobby 
against mandatory helmet law. Do those lobbies still exist 
today?
    Mr. Korn. They sure do. In fact, there has been a 
retraction in the helmet use laws in some States around the 
country. The childhood injury prevention movement doesn't quite 
have the organized opposition that the motorcycle helmet law 
has, but we do run into that same issue like kind of 
Government's role is overstepping its bounds a little bit.
    My response to that, when it comes to the children, we 
always have to keep the best interest of children in mind, and 
there are so many examples of that, adoption and child abuse. 
You always keep the best interest of the children in mind.
    When it comes to these types of State laws that happen, the 
bicycle helmet laws, the personal flotation device laws, the 
smoke alarm laws, we are talking about children. That helps us 
cross that hurdle that the motorcycle helmet efforts and 
advocates run across from that very organized lobby that does 
still exist today.
    Senator Isakson. I remember my predecessor, Senator 
Coverdell from Georgia, who was in the Senate before Zell 
Miller was here in the seat I hold, he actually was the driving 
force behind the mandatory seatbelt law in Georgia, which also 
was taking place in that same time period. The compelling 
argument that finally broke the opposition in terms of 
intervention versus freedom was the impact, cost impact to 
society on the lost productivity, which was testified to 
earlier, as well as the medical cost and the treatment cost and 
the rehabilitation cost.
    That was the argument that finally broke the opposition on 
those two pieces of legislation.
    Mr. Korn. Thankfully, Justin is with us here today. I mean, 
if he had been seriously injured, the medical costs would have 
been astronomical, and we all would have paid that. The family 
couldn't have afforded that. Instead, it was a $15 helmet that 
saved his life.
    So those costs, as if protecting and saving the child's 
life isn't enough--I think it is--but now we can also make the 
cost effectiveness argument in addition to that, and that helps 
us combat what little opposition there is. We do have 
opposition, but it helps us get over that hurdle.
    Senator Isakson. Justin, I am not a snowboarder. So you are 
going to have to--you were snowboarding, right?
    Mr. Bruns. Yes.
    Senator Isakson. What is a rail?
    Mr. Bruns. A rail, it is like something that you grind on 
with your board.
    Senator Isakson. That you grind?
    [Laughter.]
    Mr. Bruns. Yes. I can't really explain it. But go to 
YouTube.
    Senator Isakson. Well, I know the Summer Olympics are 
coming up, and this is a Winter Olympic example. But 
snowboarding has become a huge part of Olympic sports. The 
Olympics do a good job of mandatory helmet requirements of all 
participants, don't they?
    Mr. Bruns. Yes, everyone has to wear a helmet.
    Senator Isakson. Snowboarding looks particularly--to 
somebody my age, snowboarding looks particularly dangerous to 
start with. So I want all the protection that I could get. But 
your testimony is outstanding. I want to encourage you to be an 
advocate and use your personal story because kids influence 
kids more than anybody else.
    When you can tell your story and tell them that you got to 
come to the U.S. Senate and advocate on behalf of what a helmet 
did for you, you can save somebody else's life. So what you are 
doing today is very important, and we commend you for being 
here and what you are doing.
    I commend all of you for your advocacy on behalf of safety 
for kids.
    The Chairman. Good. Thank you.
    Just a final couple of questions, and I join--thanking 
Senator Isakson for making that point and just underline it. 
Your example is key in terms of the future. It will make a real 
difference to other children's safety. So good for you.
    Let me ask Meri-K about hidden hazards in the home that 
parents should know about. Do you want to just talk about that 
for a minute?
    Ms. Appy. I would love to. The Home Safety Council has done 
a number of studies, including the most definitive one, the 
State of Home Safety in America, followed up by a series of 
smaller studies to get an idea about what parents are thinking 
about out there.
    About 90-plus of the caregivers we surveyed indicated that 
they do think about safety quite a bit, but they are not acting 
really. We wanted to know why. Many of them said they don't 
know what actions to take, or they don't have enough time to do 
it, or home improvements are too expensive.
    I think our challenge here is to really help make it very 
clear what the hazards are that you may not know about. I will 
give you one specific example. Hot water tap burns, scalding 
burns. When we surveyed parents, we found that hardly any of 
them knew what the temperature of the water coming out of the 
tap really is. Yet at temperatures of 140, 150 degrees, a child 
can be devastatingly scalded in just seconds.
    We worked with a mother actually from Georgia, come to 
think of it, Shelly McCammon, who has been helping us raise 
awareness of the dangers of hot water tap burns. Her story 
actually inspired the private sector to create a tool that can 
prevent that. It is called Hot Stop. It has got sensing devices 
in the tub spout and shower head so that if the water reaches a 
dangerously high level, it shuts it off to just a trickle. It 
only costs $25 to replace this tub spout.
    When I talked with Shelly, this mother, she looked me right 
in the eye and said, ``Meri-K, I am a conscientious mom. David 
and I baby-proofed everything. Nobody ever told us that hot 
water could do this to Leah.'' Her baby died of third-degree 
burns.
    So I think part of what we have to do without scaring the 
parents too much, we have to kind of point out these are the 
things that can happen, these are the things you can do to 
prevent it from happening, and if you do these things, you know 
what, it will work.
    Once we complete that circle, thinking always about the 
ones who may not be able to read that brochure. They may not 
see the notice that there is a free smoke alarm distribution. 
They may be falling through the cracks. So working harder to 
get into those homes, I really believe we can make a tremendous 
difference.
    The Chairman. That is an enormously interesting. I think 
all of us have had over our life experience that same sort of 
situation where that just scalding hot water comes out of the 
taps.
    Ms. Appy. Exactly.
    The Chairman. Could I ask you just about the key elements 
of the Home Safety Council, home safety, the literacy project? 
Do you want to just tell us, could you speak to that for a 
minute?
    Ms. Appy. Yes, you see me smiling. I have been a safety 
educator for more than 25 years. I don't know if you know, 
Senator, I spent 13 years at the National Fire Protection 
Association in Massachusetts, in fact. So I have really devoted 
my life to safety education programs, particularly school-based 
programs for children, which I love.
    However, in thinking about who makes safety changes at 
home, it became clear it is really the adults. When we did some 
research on most of the information going home to families, we 
learned that much of it, if not most of it, is written at a 
level the parents can't--many parents cannot read.
    So the idea behind the Home Safety Literacy Project is to 
identify adults in the community who come forward to learn to 
read as they are adults. As they are learning to read in 
English, we integrate basic safety lessons into that process. 
So you join forces with literacy experts and safety experts to 
really get into some of the homes where families are of lower 
income levels and education levels. Those tend to be families 
at highest risk.
    So it is very efficient. Thread the needle into some of 
those homes we really can't reach any other way.
    The Chairman. Good. Alan, finally, just on those props that 
you have there, do you want to give us one, a little visual 
there?
    Mr. Korn. Sure. Your question of hidden hazards, one of 
which we are concerned with is carbon monoxide. This is a 
carbon monoxide detector that you put up in your home. The 
sources of carbon monoxide are your car, gas heaters, 
anything--a combustible natural source of fuel in the home, a 
fireplace.
    If you don't have a carbon monoxide detector in your home, 
there is no way you can detect that it exists. It is odorless. 
It is tasteless. It doesn't have any smell, unlike fire.
    So this is a newer, relatively newer device out there, and 
we could use the help, maybe through your Poison Control 
Enhancement Act, which I know you have passed out of this 
committee and I think is up for some reauthorization. This is a 
hidden hazard in the home that we are actually taking an extra 
look at and making some more efforts at.
    We are starting the summer season and drownings are of 
particular concern to me. Notwithstanding what I do for a 
living, I am not that tightly wound as a parent. I want my 
child out there playing. But when it comes to pools, when it 
comes to hot tubs, watching your children every step of the way 
when they are in the water makes such a big difference because 
drowning does not happen like it does in the movies.
    There isn't a ``help, help, I'm drowning'' and plenty of 
time to react. A 2-year-old or 4-year-old goes under, that is 
the last you see of them. So we kind of work with a water 
watcher program, where you assign a parent to a pool to watch. 
You want to avoid the situation where everybody is watching the 
pool, but nobody is watching the pool. It is this type of 
device and those types of hidden hazards that we are going to 
work toward preventing.
    The Chairman. OK. I want to thank--Senator Isakson, 
anything further?
    Senator Isakson. I would just thank the panelists for being 
here.
    The Chairman. Panelists, very helpful. We will want to hear 
from you another time, another year or so, find out the 
progress that is being made. We are always interested in any 
suggestions you have for us about what we can do to help.
    Where we stand ready, we can do both sort of legislatively 
or if you have some suggestions about things that we ought to 
know about and that we ought to be involved in, I hope you will 
feel free to let us know. We congratulate all of you for the 
difference that you make.
    The committee will stand in recess.
    [Additional material follows.]

                          ADDITIONAL MATERIAL

                   Prepared Statement of Senator Enzi

    Good morning and thank you for joining us today to discuss 
preventing childhood injuries. Our Nation has come a long way 
in reducing childhood injuries and making parents and others 
aware of ways they can help keep their kids safe. Today, we 
will take a look at where our Nation has been, where we are 
today, and where we need to be in the future for child injury 
prevention.
    Unintentional injuries are the leading cause of death among 
children in the United States with nearly 100,000 deaths a 
year. Those injuries include motor vehicle accidents, bicycle 
accidents, fires, poisonings, burns, falls, and playground 
injuries, among many others. While the number of deaths is 
startling, we also need to put that into perspective.
    Twenty years ago, parents generally didn't secure an infant 
or young child in a safety seat when driving. Today, all 50 
States and the District of Columbia require infants and 
toddlers to be in a child safety seat, and 43 States have child 
booster laws. The child-safety seat campaign has proven to be 
one of the most successful campaigns in child injury 
prevention. We also have requirements that motor vehicles are 
designed to make child-safety seats more effective and to allow 
for installation to be much easier. These efforts, accomplished 
by a partnership with State governments and the Federal 
Government, have significantly decreased the number of 
unintentional deaths caused by car accidents. Since 1975, 
deaths among children aged less than 5 years have decreased 30 
percent to 3.1 per 100,000 population.
    We've not only taken action in our cars but also in our 
homes. Through city ordinances requiring fire and carbon 
monoxide detectors to additional Federal standards for safer 
pools to increased use of bicycle helmets, we have 
significantly reduced the number of childhood injuries. As each 
of these cases demonstrates, the public health actions are not 
simply those made by the Federal Government. In fact, States 
and localities have traditionally had the most successful 
efforts.
    Sometimes, what the Federal Government can do is simply 
ensure that we have the right information to parents. Last 
year, as part of the FDA Amendments Act, we reauthorized the 
Best Pharmaceuticals for Children Act (BPCA) and the Pediatric 
Research Improvement Act (PRIA). BPCA and PRIA act as a 
``carrot and stick'' to ensure that parents have the right 
information about the drugs kids take. Kids aren't little 
adults. They metabolize drugs differently than adults. Because 
of BPCA, over 300 studies have been performed to see how drugs 
affect kids.
    The local police and fire fighters play a large role in 
preventing and responding to unintentional child injuries and 
are much more effective because of their relationship with the 
community and ability to react more quickly than any program 
the Federal Government could create. Child injury prevention 
must continue to be the responsibility of the State first and, 
when needed, the Federal Government may support their efforts.
    Between 1987 and 2000 we have seen a 40 percent decline in 
the injury death rate. The decline is a result of successful 
prevention campaigns with child-safety seats, a reduction in 
alcohol-related motor vehicle deaths and many other child 
injury prevention efforts. All 50 States have come a long way 
in injury prevention yet we still see over 100,000 deaths per 
year caused by unintentional injuries. We must continue to 
reduce these numbers through public education and messaging, 
new devices to eliminate risk and continued support for 
prevention programs across the country.
    I look forward to hearing from our witnesses today to 
better understand how far we have come to reduce the number of 
deaths, where we need to be in the future and how to address 
the challenges we see ahead.
    [Whereupon, at 11:37 a.m., the hearing was adjourned.]

                                    

      

</pre></body></html>
